<html>
<title> - CALIFORNIA MISSIONS ACT; BARANOV MUSEUM STUDY ACT; MANHATTAN PROJECT NATIONAL HISTORICAL PARK STUDY ACT; AND JOHNSTOWN FLOOD NATIONAL MEMORIAL BOUNDARY ADJUSTMENT ACT</title>
<body><pre>[Senate Hearing 108-485]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-485
             CALIFORNIA MISSIONS PRESERVATION ACT; BARANOV 
MUSEUM STUDY ACT; MANHATTAN PROJECT NATIONAL HISTORICAL PARK STUDY ACT; 
     AND JOHNSTOWN FLOOD NATIONAL MEMORIAL BOUNDARY ADJUSTMENT ACT

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 1306                               H.R. 1446

                           S. 1430                               H.R. 1521

                           S. 1687


                                     

                               __________

                             MARCH 9, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

94-203              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Carolina
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     6
Boxer, Hon. Barbara, U.S. Senator from California................     6
Cantwell, Hon. Maria, U.S. Senator from Washington...............    15
Costlow, Walter, Founder and Chairman, The 1889 South Fork 
  Hunting and Fishing Club Preservation Society..................    32
Farr, Hon. Sam, U.S. Representative from California..............    11
Floyd, Carolyn, Mayor of Kodiak, AK..............................     3
Hearst, Stephen T., Founding Chairman of the Board, California 
  Missions Foundation............................................    43
Kelly, Cynthia C., President, Atomic Heritage Foundation.........    34
Lynn, Reverend Barry W., Executive Director, Americans United for 
  Seperation of Church and State.................................    37
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     2
Smith, P. Daniel, Special Assistant, National Park Service, 
  Department of the Interior.....................................    17
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                               APPENDIXES

                               Appendix I

Responses to additional questions................................    49

                              Appendix II

Additional material submitted for the record.....................    55

 
 CALIFORNIA MISSIONS ACT; BARANOV MUSEUM STUDY ACT; MANHATTAN PROJECT 
   NATIONAL HISTORICAL PARK STUDY ACT; AND JOHNSTOWN FLOOD NATIONAL 
                    MEMORIAL BOUNDARY ADJUSTMENT ACT

                              ----------                              


                         TUESDAY, MARCH 9, 2004

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:52 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator  Thomas. We will call this meeting to order. We had 
a little confusion on the time here because of voting, but we 
will get on with it here very soon.
    In that some of the participants are still over voting, we 
are going to go ahead and open the hearing with a statement 
from Senator Murkowski, and I think there is one witness on 
that bill, and then we will move to the others. So, Senator?
    [The prepared statement of Senator Feinstein follows:]

       Prepared Statement of Hon. Dianne Feinstein, U.S. Senator 
                      From California, on S. 1306

    Mr. Chairman, I want to thank you for holding a hearing on this 
bill, S. 1306, the California Missions Preservations Act, which is so 
important to me and to the people of California. This bill will support 
the efforts of the California Missions Foundation as they work to 
rehabilitate the 21 California Missions. Because these Missions house 
valuable Spanish colonial artifacts and represent the pioneering spirit 
of the Old West.
    I am pleased to join Senator Boxer in cosponsoring this bill and 
applaud her leadership in introducing this legislation. I would also 
like to recognize the California delegation in the House, particularly 
Congressman Sam Farr, for introducing the House version of this bill 
and seeing to it that it passed the other Chamber.
    Built over 225 years ago by Spanish settlers and Native Americans, 
the California Missions and their artifacts represent the rich cultural 
and architectural history of our country. The chain of 21 missions 
along California's El Camino Real (``The Royal Highway'') represents 
the first arrival of non-Native Americans to California. Every one of 
the California missions tells a story about the history of California.
    And yet, many of the missions are in states of serious disrepair.
    They are, in some cases, termite infested, and experiencing 
structural deterioration and water damage--their artifacts cracked, 
broken or lacking their original luster.
    Last October, for instance, at Mission San Gabriel Arcangel a 
wooden beam fell from the ceiling and crushed some of the 197 year old 
artifacts--thankfully, injuring no one.
    And in December, after an earthquake hit central California, 
Mission San Miguel Arcangel experienced a one-inch crack on one wall 
from floor to ceiling. It also suffered major cracks on five pillars, 
and lost an original American Indian mural.
    Because of the extent of the damage, the decision was made to close 
the Mission indefinitely and some now question whether the building 
will ever be reopened. This is particularly disheartening knowing that 
it is the only mission in California that had all its original interior 
paint.
    Mr. Chairman, this is just one example of the state of the 
Missions. I don't want to stand by and watch more California treasures 
deteriorate beyond repair.
    This bill authorizes the Interior Secretary to provide $10 million 
in matching grants over five years to the California Missions 
Foundation, a non-profit organization charged with raising money to 
restore the missions. The Foundation will use the grants to restore the 
buildings, artwork, and artifacts associated with the Missions.
    To ensure that the vast amount of state support is reflected, the 
bill requires a state, private or local match. The Foundation has been 
working overtime to raise private funds to match the $2 million per 
year over the 5 years so that the Missions can be saved. They have been 
leading a statewide fundraising drive to solicit local money and it is 
my understanding that they are well on their way to reaching their 
goals.
    The California missions are the most visited historic attractions 
in the State, drawing more than 5 million tourists a year. They serve 
an important role in educating children and adults alike about the 
history and the early settlements in California.
    The California Missions are state treasures and they are on the 
verge of being lost to us forever. We must make restoration and 
protection of the missions a priority.
    We do not believe that time is our side. And I look forward to 
working with Senator Boxer and this Committee to get this done.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the accommodation this afternoon. And thank you for allowing me 
to offer an opening statement on my bill, S. 1430, pertaining 
to the Erskine House, which is an important historic structure 
in Kodiak, Alaska.
    I would like to take a moment to recognize my constituent, 
the Honorable Carolyn Floyd, who is the mayor of the city of 
Kodiak, and who will be testifying shortly.
    In addition, we have got Judith Bitner, Alaska's State 
Historic Preservation Officer, with us today. Judy is also the 
immediate past president of the National Conference of State 
Historic Preservation Officers and I am pleased to welcome her 
to Capitol Hill.
    S. 1430 resolves a piece of unfinished business from the 
107th Congress. In the Department of the Interior and Related 
Agencies Appropriation Act for fiscal year 2002, the 107th 
Congress earmarked $250,000 for the Baranov Museum and the 
Erskine House. A portion of this money was intended to be used 
for a special resource study to determine whether the Erskine 
House would be a fitting addition to the National Park System. 
The money was earmarked in response to a recommendation by the 
Interior Department on February 11, 2000, that the Erskine 
House be studied for potential inclusion in the National Park 
System.
    Even though funds for the study have been available since 
fiscal year 2002, work on the study has not yet commenced. This 
is because the National Park System New Area Studies Act states 
that no study of an area for potential inclusion in the 
National Park System may be initiated without specific 
authorization of Congress.
    S. 1430 provides the special authorization required to 
undertake the study.
    I want to extend my appreciation to the National Park 
Service, the city of Kodiak, and the Kodiak Historical Society 
for working with my office on this legislation.
    Now, the Kodiak Historical Society asks that I clear up a 
bit of confusion about the relationship of the Baranov Museum 
to the Erskine House. The Erskine House, which is the historic 
structure, is owned by the city of Kodiak. It presently houses 
the Baranov Museum. Museum collections are owned by the Kodiak 
Historical Society. And although S. 1430 speaks to the 
potential inclusion of the Baranov Museum in the National Park 
System, it is the Erskine House which is to be the focal point 
of the proposed special resource study.
    I would, therefore, suggest that the subcommittee amend S. 
1430 to state that it is the Erskine House, or the historic 
property itself, that is the subject of the study.
    The city and the historical society have agreed that the 
special resource study should examine whether the Erskine House 
would merit inclusion in the National Park System with the 
Baranov Museum collections coming along, but also address the 
value of the historic structure to the National Park System if 
the historical society decided to relocate the collections to 
another location.
    I understand that the National Park Service is agreeable to 
this, and at markup, I would ask that the subcommittee consider 
either an amendment to S. 1430 or appropriate legislative 
history to effect this intent.
    But with these technicalities aside, the city, the 
historical society, and that National Park Service all agree 
that the special resource study authorized by S. 1430 will 
focus attention on the importance of preserving the Erskine 
House.
    I want to thank the historical society and the city of 
Kodiak for allowing me to sponsor this legislation and would 
urge its swift passage. Thank you, Mr. Chairman.
    Senator Thomas. If I could ask the other witnesses to wait 
just a second, we will get Ms. Floyd here to make her 
statement. Welcome. Ms. Floyd is the mayor of the city of 
Kodiak, Alaska.

        STATEMENT OF CAROLYN FLOYD, MAYOR OF KODIAK, AK

    Ms. Floyd. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to appear before you today and 
thank you for letting me testify early to discuss our support 
for Senator Murkowski's bill, S. 1430, to conduct a special 
resources study of the Erskine House. I am Carolyn Floyd, mayor 
of the city of Kodiak, Alaska for the past decade. I am a 48-
year resident of Kodiak Island and have come to know the 
Erskine House both in my official capacity and as a member of 
the community.
    The city of Kodiak appreciates Senator Murkowski's efforts 
to move the Erskine House study forward, and we thank the 
National Park Service for their support and cooperation in this 
regard as well. Kodiak enjoys a fine working relationship with 
the Park Service in our region, and we look forward to 
continuing the collaborative effort.
    The Erskine House is one of Kodiak Island's and, indeed, 
America's historic jewels. Designated a National Historic 
Landmark in 1962, it is one of only four remaining western 
hemisphere Russian period structures. Built by the Russians in 
1808, the structure houses a unique collection of Native 
Alaskan and Russian artifacts, representing the historical 
continuity between the Russian American and the Alaska 
commercial trading companies.
    The city of Kodiak believes such a unique structure 
deserves full consideration for potential inclusion in the 
National Park System. Completion of the special resources 
study, initially funded in 2002, will enable the National Park 
Service to thoroughly determine the feasibility and suitability 
of designating the building as a unit of the park system.
    It is important to note here that the Park Service 
previously recommended the Erskine House study in the fiscal 
year 2002 budget and that Congress provided the necessary funds 
to conduct the study in Public Law 105-391. All that remains 
now is for Congress to authorize the study, for Kodiak to 
complete the study with the Park Service technical support, and 
then for the Park Service to review the study and provide final 
recommendations to Congress. Senator Murkowski's legislation 
will finally allow this process to start to take place.
    The Erskine House collections are owned and managed with 
care by the Kodiak Historical Society. Together with the 
historical society, the city of Kodiak has done its very best 
to maintain the integrity of the overall structure since the 
building was saved from destruction after the 1964 earthquake 
and tidal wave. Unfortunately, neither the historical society 
nor the city is well equipped to adequately maintain such a 
fragile building, and there are genuine concerns for the long-
term future of the structure and adequate protection of the 
artifacts.
    We believe the only way to ensure survival of this historic 
structure is to conduct a thorough review of the facility with 
support from the most appropriate agency and staff members that 
do this type of specialized work. And we believe the National 
Park Service is the organization best suited to examine this 
structure and hopefully preserve its long-term future as a 
national treasure. The special resources study is the first 
critical step in this process.
    Mr. Chairman and members of the subcommittee, thank you for 
this opportunity to comment on Senator Murkowski's bill, S. 
1403, and for your consideration of helping the city of Kodiak 
and the Nation preserve this treasure, the Erskine House. Thank 
you.
    [The prepared statement of Ms. Floyd follows:]
  Prepared Statement of Carolyn Floyd, Mayor of Kodiak, AK, on S. 1430
    Dear Mr. Chairman and Members of the Subcommittee, thank you for 
the opportunity to provide written testimony in support of Senator 
Murkowski's bill S. 1430, to authorize a Special Resources Study of the 
Erskine House, located on Kodiak Island, Alaska. We truly appreciate 
Senator Murkowski's efforts to move this study forward and we thank the 
Members of this Subcommittee for taking the time to hear from the City 
of Kodiak.
    I am Carolyn Floyd, Mayor of the City of Kodiak, currently serving 
my 11th year as mayor of the City. I have called Kodiak Island home for 
48 years. I have come to know the Erskine House in both my official 
capacity and as a resident of Kodiak.
    The Erskine House is one of Kodiak Island's, and indeed America's, 
historic jewels. Designated a National Historic Landmark in 1962, it is 
one of only 4 remaining Western hemisphere Russian period structures. 
Built by the Russians in 1808, the structure houses a unique collection 
of Native Alaskan and Russian artifacts, representing the historical 
continuity between the Russian American and Alaska Commercial trading 
companies.
    Together with the Kodiak Historical Society, the City of Kodiak has 
done it's very best to maintain the integrity of the overall structure 
since the building was saved from destruction after the 1964 
earthquake. Unfortunately, neither the City of Kodiak nor the 
Historical Society is well equipped to adequately maintain such a 
fragile building and there are genuine concerns for the long-term 
future of the structure, and protection of the artifacts.
    A Federal Architectural Conservation Assessment was made of the 
Erskine House and surrounding grounds in 1993 by historical 
architectural engineer, James R. McDonald Architects. The report 
identified many needs, including but not limited to: installation of a 
new porch and upgrade stairs for adequate safety; replace dilapidated 
concrete and replace portions of the rock retaining wall; upgrade 
restrooms; replace windows on all three floors and porch; wiring and 
circuit box must be replaced to ensure safety of building and visitors; 
install a fireproof door on the furnace room; and upgrade to a fire 
suppression system recommended for historic structures. An updated 
assessment was conducted in 2002 and reached similar conclusions 
regarding required repairs and maintenance.
    Despite the deficiencies highlighted in the 1993 and 2002 site 
assessments, much work has actually been accomplished on the Erskine 
House. Since 1967, over $500,000 has been spent on building 
improvements by the City of Kodiak. The foundation was repaired in 
1978, the second floor strengthened in 1985, and in 1997 the second and 
third floors were insulated. The City of Kodiak recently replaced the 
roof but there is much work yet to be done and neither one of these 
entities are especially well suited to this type of historical 
preservation.
    The City of Kodiak believes the only way to ensure survival of this 
historic structure is to conduct a thorough review of the facility with 
support from the most appropriate agency and staff members that do this 
type of specialized work. And we believe the National Park Service is 
the organization best suited to provide technical assistant to help the 
City examine this structure and hopefully, preserve its long-term 
future as a National historic site. The Special Resources Study is the 
first critical step in this process.
    With these concerns in mind and working with the Alaska 
Congressional Delegation, the City requested a Special Resources Study 
(SRS) in 2000 to determine the suitability and feasibility of 
designating the structure as a unit of the National Park Service. The 
National Park Service fully recommended the Erskine House for a SRS in 
the fiscal year 2001 budget and Congress provided the necessary funds 
(i.e. $250,000) to conduct the study in Public Law 105-391. 
Unfortunately, the budget/appropriations processes preceded the 
authorization process and as a result, the City was unable to move 
forward with the SRS in 2001.
    S. 1430 will finally provide the necessary authorization for 
completion of the study using existing funds. Furthermore, the 
legislation calls for the NPS to submit a report within one year 
describing the findings of the study and any conclusions and 
recommendations of the Secretary of the Interior. We fully support 
those components of S. 1430.
    The City of Kodiak enjoys a fine working relationship with both the 
NPS and the Kodiak Historical Society. We look forward to continuing 
this collaborative effort to complete the SRS as soon as feasible and 
ultimately determine what is best for the Erskine House and its 
associated collections.
    We believe such a unique structure deserves full consideration for 
potential inclusion in the National Park System. Completion of the SRS, 
initially funded in 2000, will enable the National Park Service to 
thoroughly determine the suitability of designating the building as a 
unit of the Park system.
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to submit written testimony in support of Senator 
Murkowski's S. 1430 and for your consideration of helping the City of 
Kodiak and the Nation preserve the beloved Erskine House.

    Senator Thomas. Fine. Thank you for being here. What is the 
population of Kodiak?
    Ms. Floyd. Of the city of Kodiak, it is about 6,800 right 
now.
    Senator Thomas. Well, thank you so much for being here.
    Ms. Floyd. Thank you.
    Senator Thomas. Let me go back then and say good afternoon, 
welcome representatives from the Park Service and other 
witnesses at today's National Parks Subcommittee hearing.
    Our purpose is to hear testimony on three Senate bills and 
two bills from the House.
    S. 1306 and House companion H.R. 1446, to support the 
efforts of the California Mission Foundation to restore and 
repair the Spanish colonial and mission-era missions in the 
State of California and to preserve artworks and artifacts of 
these missions, and for other purposes.
    S. 1430 we have just heard with respect to the museum in 
Kodiak, Alaska.
    S. 1687, a bill to direct the Secretary of the Interior to 
conduct a study on the preservation and interpretation of 
historic sites of the Manhattan Project for potential inclusion 
in the National Park System.
    And finally, H.R. 1521, a bill to provide for additional 
lands to be included within the boundary of the Johnstown Flood 
National Memorial in the State of Pennsylvania and for other 
purposes.
    So, let me thank the witnesses for being here today and we 
look forward to hearing your testimony.
    Senator, do you have any comment?

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Very briefly, Mr. Chairman. Thank you for 
having the hearing.
    I am here, of course, to support, in particular, S. 1687, 
which is this bill to authorize the National Park Service to do 
a study of the Manhattan Project or sites that could be 
preserved and interpreted for the public with relation to the 
Manhattan Project. It is an important piece of legislation for 
my State, particularly, because of the prominence of Los Alamos 
National Laboratory and the city of Los Alamos in northern New 
Mexico.
    Also, the issue of the Trinity Site is one that we have 
discussed and may or may not be included.
    I do have a letter of strong support for this legislation 
from the Director of Los Alamos National Laboratory, Pete 
Nanos, and I would ask that it be included in the record.
    Senator Thomas. It shall be included.
    Senator Bingaman. Thank you very much.
    Senator Thomas. Thank you, Senator.
    We are very pleased to have Senator Barbara Boxer here and 
Congressman Sam Farr. Would you like to proceed?

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Boxer. Thank you very much, Senator Thomas and Mr. 
Chairman. It means a lot to me personally that you are holding 
this hearing. We have been working with your staff. They have 
been very helpful in arranging it. The last time we had it set 
up, there was ricin in the building somewhere, and we had to 
cancel it. We had a lot of disappointed folks in California, 
but this happened here today. Of course, Congressman Farr will 
explain to you the broad bipartisan support that he represents 
today in the House for this bill.
    I am going to ask you if I could put my whole statement in 
the record, Mr. Chairman.
    Senator Thomas. It will be in the record.
    Senator Boxer. And I would like to summarize it and try to 
do this in 5 minutes or less.
    Senator Thomas. Thank you, ma'am.
    Senator Boxer. So I will speak quickly.
    We all know that to understand the present, we have to 
understand the past. That is obvious. Mr. Chairman, we are in 
danger of losing our past, losing our history in California 
today, and that is why we are here.
    I wanted to say a big thank you to Stephen Hearst for being 
here. It is very critical to us that he is here because he is 
going to give you the view from California as to why this is so 
very, very important.
    If you look at this book, Mr. Chairman, this is a beautiful 
textbook. It is our textbook in California. It is a fourth 
grade book. You just see right here Life in the Missions. This 
is our history and it is a very interesting history. It is a 
very beautiful history. It is also a very painful history, but 
it is our history. The missions are such a piece of that 
history and contain irreplaceable artifacts made by Native 
Americans and others.
    Some of the mission settlements grew into the major cities 
of today, cities I know that you have been in: San Diego, Santa 
Barbara, San Francisco. Mr. Chairman, even when you hear the 
term ``missions revival'' that essentially is reflected in the 
architecture of the buildings throughout our State and I am 
sure throughout yours as well.
    All 21 missions are California registered historical 
landmarks and 7 of the missions are National Historical 
Landmarks. These missions contain rich resources that are 
important to understanding Hispanic colonial experience, Native 
Americans, and California. Thousands of treasures can be found 
in California missions--I am just going to show you a chart 
here--including Native American artifacts, paintings, statues, 
textiles, and tools.
    There you see a mural made in 1791 that was just recently 
found at Mission Dolores in San Francisco. This is what they 
found, this exquisite work that they unearthed by working in 
that mission. All of this is threatened. We may never see it 
again if we do not act. So hidden from public view for 208 
years, this mural was discovered in January under a trap door. 
The opportunities to discover such significant artwork will be 
lost if we are not able to preserve our missions and their 
artifacts.
    I am before you today because I feel this is a mission of 
enormous proportion and it is sort of an emergency mission 
because when you see later the status of our missions and what 
is happening. 18 of the 21 are made of adobe or dried mud. The 
forces of nature, such as water, winds, insects have 
destabilized the structures, caused deterioration and damaged 
the artifacts. Insufficient foundations combined with 
earthquakes have undermined the stability of mission buildings, 
and all need seismic retrofitting. As a result, collapse of 
some structures is imminent without immediate repair.
    We will show you Mission Soledad. You can see where 
weathering, exposure, and neglect have taken their toll on this 
mission.
    And now, post-quake, I want to show you about the Mission 
San Miguel in San Miguel, California. This is the most 
endangered California mission. It has been closed entirely 
since the December earthquake. Even before the earthquake, the 
walls were badly cracked, and then afterwards--this is the one 
after. You can see what is happening. The cracks are formed 
when water percolates into the adobe.
    Many missions are losing precious Native American 
artifacts. I will show you the Mission Santa Barbara photo. 
This gargoyle, when you find it, was carved by the Chumash 
Indians at Mission Santa Barbara. It is called a lavanderia, or 
a wash basin. Unfortunately, it has experienced years of 
erosion and weathering.
    Mr. Chairman, the California Missions Foundation, whose 
executive director is here today, is leading a statewide 
campaign to raise $50 million to repair the missions and 
preserve their historical and cultural treasures. You can see 
from our bill we are asking, ``Can the Federal Government help 
with $10 million of the $50 million because we feel that would 
give them a huge boost?'' We believe that only by working 
together will we succeed. Again, the need is absolutely urgent.
    The bill before us today, the California Missions 
Preservation Act, again would authorize $10 million in matching 
grants--matching grants. It is not a giveaway--over the next 5 
years for the California Missions Foundation to repair, 
restore, and preserve the artworks and the artifacts and the 
missions.
    Now, I want to just take a minute to express my frustration 
that the administration today, Mr. Chairman, is going to be 
opposing this legislation. We had a little discussion here, 
which was a pretty feisty discussion, but that is OK because 
that is what democracy is. We disagree. They are basically 
saying you do not need this. Mr. Chairman, they are telling you 
we do not need this. You can take this money from existing 
funds.
    Well, the reason that we are here today and the reason the 
House acted so quickly and Chairman Pombo acted so quickly with 
Congressman Farr is because we know there is not enough funding 
in these other accounts. This is not part of the Historic 
Preservation Fund. This is a separate authorization and 
appropriation specifically for this project because we do not 
want to take away from all the other needs of the country, and 
yet we have an emergency circumstance.
    We got a little bit into a discussion here because 
apparently the administration just does not see it this way, 
and that is their right. But I am hoping the testimony today 
will put you on our side here. We will see what happens.
    The earthquake that forced Mission San Miguel to close just 
shows you how precarious this whole things is. And once these 
are gone, they are gone. It is not like a marshland. You could 
restore a marshland if somebody illegally filled it. You just 
take out the fill. You work on it. You cannot in any way put 
these things back together again. No way.
    Let me tell you about the bipartisan support because, Mr. 
Chairman, I know it is important to you. Sam Farr and David 
Dreier with 47 bipartisan cosponsors, the two Senators from 
California support this. The House bill passed last October.
    I have received 40 endorsement letters and I am not going 
to go through any but one, and I would ask if they could put up 
the chart of the letter from my Governor. Would you read it, 
Sam? Because it is too far away from me.
    Mr. Farr. Do you want me to read the whole letter?
    Senator Boxer. Yes, I do.
    Mr. Farr. It's to Honorable Barbara Boxer.

    Dear Senator Boxer, some of the most significant and identifiable 
historical features of the Spanish and Mexican periods in California 
are the 21 missions built along El Camino Real between San Diego and 
Sonoma. The most important sites have left a durable architectural, 
social and spiritual imprint on the State and deserve a higher level of 
support than has been available in the past.
    I strongly support your bill, S. 1306, the California Missions 
Preservation Act, to aid the efforts of the California Missions 
Foundation to restore and repair the missions and their historical 
collections.
    Thank you for your efforts to care for an irreplaceable part of 
California's heritage. We cannot lose these treasures of our past.
    Sincerely, Arnold Schwarzenegger, Governor of California.

    Senator Boxer. Thank you, Congressman, for reading that.
    I am just going to finish here. You are going to have some 
testimony on separation of church and state. I find it 
interesting because I am a believer in separation of church and 
state. That is why when this legislation was put together, it 
was put together in a very careful way, that the funding goes 
to a foundation, not to a religious entity. We think that is 
the proper way to do this. We believe we are taking kind of a 
moderate approach because you have got one side saying get 
money from the church and do this with the church, which we 
think will open it up to delays and problems because of church-
state issues. The other side says do not give any money that 
has anything to do with the missions because somehow it is 
affiliated with the church.
    We stand in the middle here. We are saying we have a way to 
do it that accomplishes our goal, and avoids the church-state 
issue. This is another issue. The administration is suggesting 
that we work with the church on this, and we know that will 
raise all kinds of questions. We do not have time to debate the 
nuances of any of this because we are losing our missions.
    That is why I am so happy that you held this hearing today. 
I am so happy Steve Hearst is here and Sam is here.
    I will stop at this point, telling you that there is ample 
precedent for this in Texas. There is a separate piece of 
legislation creating a park in Texas that is involved with the 
missions and they hold services there. We have never had any 
problems with it. So we have the precedents.
    We have the matching funds 4 to 1. We put up a dollar. They 
give us 4. We have an emergency. We have history and I think 
this is an exciting way to move forward and really help not 
only California because if you ask people of California, they 
will tell you the most visited spots in our State are our 
missions and people come from all over the country, indeed, all 
over the world.
    We thank you so much for patience and for your help.
    [The prepared statement of Senator Boxer follows:]

        Prepared Statement of Hon. Barbara Boxer, U.S. Senator 
                 From California, on H.R. 1446/S. 1306

    First of all, I want to express my gratitude for the help and 
cooperation that you, Mr. Chairman, and your staff have provided in 
bringing the California Missions Preservation Act before the 
Subcommittee today. Thank you.
    As you know, Mr. Chairman, to understand the present, you must 
first understand the past. Our society values the preservation of 
historic and cultural artifacts, as well as symbols of our nation's 
history. That is why we must preserve the California missions. They are 
an important piece of our nation's history--the European settlement and 
colonization of the Western United States--and contain irreplaceable 
cultural artifacts made by Native Americans.
    Mr. Chairman, the story of the California missions could be 
recounted by every fourth grader in the State of California. The 
history of the California missions is a required part of the statewide 
fourth-grade history curriculum. In this fourth-grade history book, Mr. 
Chairman, there is an entire section dedicated to the history of the 
California missions, and their significance in Spanish colonial 
settlement of the Western United States. Some of these settlements grew 
into the major cities of today, including San Diego, Santa Barbara and 
San Francisco. Even the architectural style of the missions, referred 
to as ``Missions Revival,'' is reflected in the architecture of 
buildings throughout California.
    Today, all 21 missions are California Registered Historical 
Landmarks and seven of the missions are National Historical Landmarks. 
These missions all contain rich archaeological resources that are 
important to understanding the Native American and Hispanic colonial 
experience. Thousands of treasures can be found in the California 
missions, including Native American artifacts, paintings, statues, 
textiles and tools. A mural made in 1791 by Native Americans was just 
recently found at the Mission San Francisco de Asis, referred to as 
Mission Dolores.
    Hidden from public view for 208 years, the mural was discovered in 
January under a trap door--Native people of San Francisco, Ohlone and 
other tribes that lived at the mission made this beautiful mural. The 
opportunities to discover such historically significant artworks will 
be lost if we are not able to preserve our missions and their 
artifacts.
    And we need to preserve the missions. They are in dire need of 
structural repairs, restoration, and major rehabilitation. Eighteen of 
the twenty-one missions are made of adobe, or dried mud. The forces of 
nature, such as water, wind, and insects, have destabilized these 
structures, caused deterioration, and damaged artifacts. Insufficient 
foundations combined with earthquakes have undermined the structural 
stability of mission buildings, and nearly all need seismic 
retrofitting. As a result, collapse of some structures is imminent 
without immediate repair.
    Mr. Chairman, let me show you a photograph of Mission Soledad in 
Soledad, California. You can see where weathering, exposure and neglect 
have taken their toll.
    Mr. Chairman, I'd also like to tell you about Mission San Miguel in 
San Miguel, California. This is the most endangered California mission 
and has been closed entirely since the December earthquake. Even before 
the earthquake, the walls were badly cracked. This photograph, taken 
before the recent earthquake, shows the massive cracks in the walls. 
Approximately two years ago, the wood beam was put in to reinforce the 
window. Within months, the wall above the window collapsed. After the 
earthquake, further damage was done, as shown by this exterior view of 
the window of the mission. These cracks are formed when water 
percolates into the adobe.
    Many missions are also losing precious Native American artifacts. 
This gargoyle was carved by the Chumash Indians at Mission Santa 
Barbara. It is called a lavanderia, or a washbasin. Unfortunately, it 
has experienced years of erosion and weathering.
    Mr. Chairman, the California Missions Foundation is leading a 
statewide campaign to raise $50 million to repair the missions and 
preserve their historical and cultural treasures. However, only the 
collaboration of federal, state and private efforts will save these 
resources.
    And, the need for resources is critical and urgent.
    The bill before us today, the California Missions Preservation Act, 
would authorize $10 million in matching grants over the next five years 
for the California Missions Foundation. The funds would be used to help 
restore and repair the California missions and to preserve the artworks 
and artifacts associated with the missions.
    The Administration will say that funding for the preservation of 
the missions should come from other sources of funding, such as the 
Save America's Treasures program. Mr. Chairman, the need to save these 
missions and their artifacts is urgent. This is a special case. While I 
strongly support the Save America's Treasures program, I do not believe 
it is sufficient to deal with this situation. The earthquake that 
forced Mission San Miguel to close only exacerbated the critical need 
for dedicated resources to save these missions.
    Additionally, there is broad, bipartisan support for the California 
Missions Preservation Act. In the House, this bill was introduced by 
Representatives Sam Farr and David Drier with 47 other bipartisan 
cosponsors. I introduced this legislation, along with Senator 
Feinstein, in the Senate.
    As you know, the House bill passed last October. I have received 
over 40 endorsement letters for this legislation, which I would like to 
submit for the record. I would like to read just one, from Governor 
Schwarzenegger.
    Finally, Mr. Chairman, I wish to respond to the main criticism of 
this legislation. As someone who strongly believes in the separation of 
church and state, I believe that federal funding should not be used for 
the promotion of religion. This is not what the legislation before this 
Subcommittee does.
    The funding would be used for preservation of mission buildings and 
artifacts because of their historical value. Funding would be 
distributed to the California Missions Foundation--no religious entity 
would receive any federal funds under this legislation.
    I believe that my approach is the right one on this issue. Some on 
the left say that repairing these historic treasures should not happen 
simply because religious services happen to be held there. Some on the 
right and the Administration say they oppose the bill because there is 
not enough involvement in preservation of the missions by the Catholic 
Church. This would in effect mean giving control of the money to the 
Church, which threatens our efforts by jeopardizing passage and 
implementation of the legislation. I think we've got it about right in 
this legislation.
    And this is not unprecedented. This would not be the first time 
that federal funding has been used for the preservation of missions 
that are used for religious services. For example, the four Spanish 
frontier missions in San Antonio, Texas were established as the San 
Antonio National Historical Park in 1978 and receive federal funding 
each year. The purpose of establishing the park, according to the Act, 
was ``In order to provide for the preservation, restoration, and 
interpretation of the Spanish missions of San Antonio, Texas.'' To this 
day, these missions still hold regular religious services.
    Mr. Chairman, to lose our missions, is to lose our history. The 
bill before us is critical if we are going to preserve the California 
missions and their artifacts for future generations to enjoy. I 
strongly urge the Subcommittee to recommend that action be taken on 
this legislation immediately.
    Thank you.

    Senator Thomas. Thank you, Senator.
    Congressman?

                  STATEMENT OF HON. SAM FARR, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Mr. Farr. Thank you very much, Mr. Chairman. I am delighted 
to be here and am very proud of this bill that we have sent 
over from the House on a voice vote of Congress, unanimous 
voice vote.
    The bill in itself is no small feat for the State of 
California to get our delegation of 53 members, 48 of whom are 
cosponsors of this bill, including both our Senators on one 
bill is unheard of. We were able to do it.
    I would like to submit for the record a letter from David 
Dreier, the chairman of the Rules Committee, who is the 
principal cosponsor with myself on this piece of legislation.
    Senator Thomas. It will be in the record.
    Mr. Farr. I think that growing up on the west coast and 
learning so much history of the United States of the east 
coast, that people forget that even before the Boston Tea 
Party, the first California mission was established in San 
Diego in 1769. The last mission in the chain was established in 
1823. California did not become a State until 1850, and frankly 
was under Mexican rule until the 1840's. So this is really a 
significant history of the West, indeed.
    All 21 missions are California registered historical 
landmarks and 7 of the missions already have a Federal nexus 
because they are National Historical Landmarks.
    I might point out that in the National Park Service, in the 
San Antonio old town, the mission is still under operation of 
the Catholic order, but the surrounding of the mission and the 
outer walls is under the jurisdiction and ownership of the 
Federal Government and the Park Service.
    I am fortunate. Of these 21 missions, 5 of them are in my 
district, so I have lived a lot with the issues that Senator 
Boxer talked about.
    The California missions represent an historic vein running 
up and down our State, from south to north, and they also 
symbolize the east-west exploration that expanded our Nation to 
its four corners. Of all the institutions that define 
California heritage, none has the historic significance and 
emotional impact of the chain of Spanish missions that stretch 
from San Diego to Sonoma. The missions are a part of our 
cultural fabric and must be preserved as priceless historical 
monuments.
    They are a living link to our past. They impact every 
Californian because I know when I was in the fourth grade and 
certainly when my daughter was in the fourth grade in both 
private and public schools, they study the missions because it 
is our link with history and with the native peoples that lived 
there. Normally what happens is a child draws one of the 21 
missions and then has to write a report on it and often build a 
model. It is a science model and every family remembers it 
because the parents all get involved in usually visiting the 
mission and then trying to help the child build the model to 
hand in as a class assignment.
    They also drive tourism. It is the State's third largest 
industry. Of all the sites in California that are most visited, 
California has over 5.5 million visitors a year that go to the 
missions. They account for a sizable contribution to each of 
the local communities that have them. We have a large number of 
international visitors. They have become synonymous with the 
State, as I said, in our education and history. For 230 years 
the missions have stood as symbols of western exploration and 
settlement.
    And some of them, as Senator Boxer pointed out, are 
crumbling or at risk of full destruction. The need is there, 
particularly since the 1989 earthquake in northern California. 
We have a lot of cracking tiles, crumbling adobe, a backlog of 
needed repairs.
    The price tag is really high. It is not something that the 
church can do on their own, and the message is clear that the 
California missions need help.
    The bill provides an important step toward addressing some 
of the most severe problems the missions are facing. The 
legislation provides for an authorization of funding of up to 
$10 million over the next 5 years, in partnership with the 
State of California and the California Missions Foundation. So 
it is a three-pronged stool. Of the $50 million campaign, only 
one-fifth of it would come from the Federal Government.
    The legislation that we have sent over here requires that 
each mission submit a list to the foundation of its most urgent 
preservation needs. All mission repairs and restoration 
projects are reviewed, approved, and supervised by 
professionals qualified in the discipline of history and 
history archaeology, archaeological history planning, 
architecture folklore, cultural anthropology, curation, 
conservation, landscape architecture or related fields.
    The projects must be accomplished in accordance with the 
applicable Secretary of the Interior standards for treatment of 
historical properties. And although the Department is here and 
argues that this bill is essentially taking money out of the 
National Historic Preservation Act, this bill specifically does 
not allow that to be done. It says that as provided in section 
101(e)(4), which is just one section of that act, that the 
Secretary shall use that to ensure that the purpose for the 
grant under this section is secular, does not promote religion, 
and seeks to protect those qualities that are historically 
significant. So they cite that act as a model for making sure 
that this is not the money given to the church.
    It goes on to say in the last part of the bill, there is 
authorized to be appropriated a total of $10 million during the 
5 fiscal year period. To make grants under this section, this 
new section we are adding, funds appropriated pursuant to the 
authorization of appropriations in this section shall be in 
addition to any funds made available for the preservation 
efforts in the State of California under the National Historic 
Preservation Act. So it does not compete with existing funds.
    I just think that this bill and the Senate companion bill 
provides us with an opportunity to address the needs of the 
missions which are an integral part of California history and a 
part of our curriculum and culture. And we would appreciate 
your support. Thank you.
    [The prepared statement of Mr. Farr follows:]

     Prepared Statement of Hon. Sam Farr, U.S. Representative From 
                  California, on H.R. 1446 and S. 1306

    Mr. Chairman, I thank you for holding this hearing today and for 
inviting me to testify on behalf of H.R. 1446 and its companion bill S. 
1306, the California Missions Preservation Act.
    This bipartisan bicameral legislation that I introduced is 
cosponsored by 48 of my House California colleagues and both Senator 
Feinstein and Senator Boxer. It was no small feat in itself getting 
this much support by the California delegation and voice passage in the 
House of Representatives on October 20th, 2003.
    Mr. Chairman, even before the fuse that led to the explosion of 
American independence was lit at the Boston Tea Party, the first 
California mission was established in San Diego in 1769. The last 
mission in the chain was established in Sonoma in 1823.
    All 21 missions are California Registered Historical Landmarks; 
seven of the missions have the federal status of National Historical 
Landmarks.
    I am fortunate to have 5 of the 21 Missions in my district, 
extending along the coast of California on the El Camino Real: Santa 
Cruz, San Juan Bautista, La Soledad, San Antonio de Padua, and in my 
hometown of Carmel, San Carlos Borromeo del Rio Carmelo.
    The California missions represent an historic vein running through 
our state, from south to north. And, they also symbolize the east to 
west exploration that expanded our nation to its four corners.
    Of all the institutions that define California's heritage, none has 
the historic significance and emotional impact of the chain of Spanish 
missions that stretch from San Diego to Sonoma.
    The missions are an important part of the state's cultural fabric 
and must be preserved as priceless historic monuments; they are a 
living link to our past.
    The missions stand as landmarks of more than two centuries and are 
recognized for their important impact they have had on the development 
of California including art, architecture, agriculture, food, music, 
language, apparel and recreation.
    The missions help drive tourism--the state's third largest 
industry. These iconic symbols of California are the most visited 
historic attractions in the state, attracting over 5.5 million visitors 
a year. They account for a sizeable contribution to the state economy 
from millions of tourists, including a large number of international 
visitors.
    And they have become synonymous with the state's fourth grade 
curriculum: Students build mission models and write research reports as 
part of California history lessons. This serves as an important 
education function in teaching young students about the role of the 
missions in the history of our state and our nation.
    For 230 years, the missions have stood as symbols of Western 
exploration and settlement. Time, natural deterioration and neglect 
have taken a heavy toll on the missions. Some are crumbling and are at 
risk of full destruction. Most need preservation and seismic work to 
restore their antique beauty and bring them up to modern safety 
standards. Without immediate repairs, these centuries-old structures 
could be lost. The need is urgent and near crisis proportions.
    Rotting roofs. Cracking tiles. Crumbling adobe. The backlog of 
needed repairs is long. The price tag is high. And the message is 
clear. The California missions need our help. Now.
    H.R. 1446 will provide an important step toward addressing some of 
the most severe problems the missions are facing. This legislation 
provides authorization for funding of $10 million over five years, in 
partnership with the State of California and the California Missions 
Foundation's statewide funding campaign.
    Under this legislation, the process requires that each mission 
submit a list to the Foundation of its most urgent preservation needs. 
All mission repairs and restoration projects are reviewed, approved and 
supervised by professionals qualified in the disciplines of history, 
history archaeology, architectural history, planning, architecture, 
folklore, cultural anthropology, curation, conservation, landscape 
architecture or related fields.
    Projects must be accomplished in accordance with the applicable 
Secretary of Interior's Standards for the Treatment of Historical 
Properties.
    All repairs and capital improvements must have competitive bids 
which the Foundation's Funding Review Committee reviews. The Foundation 
Board of Directors assesses the proposals and has final approval of all 
restoration projects funded. The missions are required to submit timely 
progress reports and accounting to the Foundation on all projects 
funded.
    Since the Spanish friars and native peoples joined together in the 
building of these settlements, the land we call California has been 
shaped and influenced by what they accomplished in that most ambitious 
undertaking.
    From the vineyards of Sonoma to the ranches of Santa Barbara to the 
adobe arcades and red tile roofs of San Diego, the California missions 
have left their mark on who we are and what we have become.
    H.R. 1446 presents us with the opportunity to address the needs of 
the missions and to preserve an integral part of our nation's history 
and the heritage of the west that combines with the east to make these 
truly united states.

    Senator Thomas. Thank you very much.
    Mr. Farr. May I add, Mr. Chairman? The National League of 
Cities is here. We are also fortunate to have David Gutierrez 
who is the mayor of the city of San Gabriel, which is where one 
of the missions is. In fact, he told me that this is how 
southern California was born, under his mission. So you can 
thank the city of San Gabriel for southern California.
    [Laughter.]
    Senator Boxer. May I sit in during the administration's 
testimony? Would that be all right?
    Senator Thomas. We will get right to that. First let me ask 
if Senator Cantwell has something she would like to say.
    Senator Cantwell. Thank you, Mr. Chairman. I did want to 
address S. 1687 if that is appropriate to do now.
    Senator Thomas. Well, we are ready to get the witnesses to 
come up here.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Then let me go ahead. Thank you, Mr. 
Chairman. Thank you for holding this hearing. I am particularly 
pleased that S. 1687 is on the agenda, the Manhattan Project 
National Historic Park Study Act, which I am proud to be a 
cosponsor, along with Senators Bingaman, Domenici, and Murray.
    This bill authorizes a special resource study to determine 
the suitability and feasibility of designating one or more of 
our facilities that have played a role in the Manhattan Project 
as a unit of the National Park System. As you know, the 
Manhattan Project was the Federal Government's top secret 
effort during World War II to develop nuclear weapons as an 
initiative that changed the course of history, and I believe it 
is of tremendous importance for the citizens of our Nation to 
learn more about the important functions of the various 
Manhattan Project sites in defending our Nation from World War 
II through the cold war, including the Hanford Reservation in 
my home State.
    We must further recognize and understand the complicated 
and weighty issues arising from production of nuclear weapons, 
their impact on world history, as well as their human and 
environmental costs.
    In recent years, Congress has taken a number of steps to 
ensure we are preserving and interpreting the site and stories 
of World War II from the industrial mobilization efforts 
commemorated at California's Rosy the Riveter National Park to 
the internment of the Japanese Americans who departed from 
Eagledale Ferry Dock on Bainbridge Island, to the World War II 
memorial on the National Mall. This story is compelling and one 
that deserves to be told.
    We owe it to the future generations to preserve the history 
of the Manhattan Project noteworthy for the awe-inspiring 
achievements of science and engineering. The Manhattan Project 
must also be understood within the context of the sweeping 
ramifications for U.S. defense policy and American military 
strength, as well as the sacrifice of our Nation's atomic 
weapons workers and the staggering mission of nuclear 
production and now cleanup.
    In January 1943, Hanford, Washington was selected by the 
War Department to serve as part of President Franklin Delano 
Roosevelt's Manhattan Project. The history of this area is a 
complicated one. Farmers and tribes were displaced, given 30 
days to move from their homes in central Washington, and at the 
time the primary mission of the Hanford Reservation was to 
build the B reactor. As American scientists and their allies 
engaged in what was then perceived as a race with the Germans 
to develop nuclear capacity, the B reactor was built in 11 
months as the world's first large scale plutonium production 
reactor. Quite simply, it was stunning feat of engineering 
which made significant contribution to U.S. national security 
during its production run from 1944 through 1968.
    Mr. Chairman, the B reactor was first of an eventual nine 
nuclear reactors that remain on the banks of the Columbia 
River, a potent reminder of both the war effort and the costs 
Americans bore in this effort. The people of Washington State, 
especially the tri-city residents, are proud of this 
contribution, and we believe that the relics of the Manhattan 
Project such as the B reactor, which are incredibly important 
in understanding achievements that propelled this country and, 
along with their complicated moral issues, deserve to be 
preserved.
    As the Department of Energy continues work at Hanford on 
cleanup, the country's most contaminated nuclear reservation, 
it is important that we also honor the achievements and 
important work done here today, as well as commemorating the 
tremendous sacrifices by workers, displaced families, and 
others.
    Mr. Chairman, I would like to submit for the record 
testimony from Del Ballard, president of the B Reactor Museum 
Association, as well as Congressman Doc Hastings, in support of 
S. 1687. I look forward to working with my colleagues in 
ensuring the passage of this legislation as it is a study 
authorized for determining what are the best options for 
preserving this piece of American history.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you. We will include the statements 
that you have.
    [The prepared statement of Senator Cantwell follows:]

        Prepared Statement of Hon. Maria Cantwell, U.S. Senator 
                      From Washington, on S. 1687

    Thank you, Mr. Chairman, for holding this hearing today. I am 
particularly pleased that you have included on the agenda S. 1687, the 
Manhattan Project National Historical Park Study Act, which I am proud 
to cosponsor along with my colleagues Sens. Bingaman, Domenici and 
Murray.
    This bill authorizes a special resource study to determine the 
suitability and feasibility of designating one or more of the 
facilities that played a major role in the Manhattan Project as a unit 
of the National Park System.
    Mr. Chairman, I am pleased to have the opportunity to work with my 
colleague in the House, Congressman Doc Hastings, who represents this 
area in Congress. He has introduced a very similar bill in the House.
    As you know, the Manhattan Project was the federal government's 
top-secret effort during World War II to develop nuclear weapons, an 
initiative that changed the course of world history. I believe it is 
tremendously important for the citizens of our nation to learn about 
the important functions the various Manhattan Project sites served in 
defending our nation, from World War II through the Cold War--including 
the Hanford Nuclear Reservation, in my home state of Washington.
    Further, we must recognize and understand the complicated and 
weighty issues arising from the production and use of nuclear weapons, 
their impact on world history as well as their human and environmental 
costs.
    In recent years, Congress has taken a number of steps to ensure we 
are preserving and interpreting the sites and stories from World War 
II. From the industrial mobilization effort, to the internment of 
Japanese Americans, to the World War II memorial on the National Mall, 
the story of World War II is a compelling one and deserves to be told. 
With the leadership of my colleague Sen. Feinstein, Congress in 2000 
established the Rosie the Riveter/World War II Home Front National Park 
in California, commemorating the contributions of American industry to 
the war effort.
    In 2002, President Bush signed into law the Bainbridge Island 
Japanese-American Memorial Study Act, authored by Sen. Murray and 
myself, along with Rep. Inslee. That legislation directs the Secretary 
of the Interior to evaluate for designation as a National Historic Site 
the Eagledale Ferry Dock on Bainbridge Island, Washington. Eagledale 
served as a point of departure for members of the Japanese-American 
community, on their way to internment camps during World War II.
    While we cannot undue the injustices suffered by these citizens, 
certainly this nation must recognize their sacrifice and preserve the 
lessons we have learned.
    I look forward to the opening of the World War II memorial on the 
Mall to commemorate our veterans.
    And just as we must commemorate the contributions of our World War 
II veterans, we owe it to future generations to preserve the history of 
the Manhattan Project. Noteworthy for its awe-inspiring achievements of 
science and engineering, the Manhattan Project must also be understood 
within the context of its sweeping ramifications for U.S. defense 
policy and American military strength, as well as the sacrifice of our 
nation's atomic weapons workers, and the staggering mission of nuclear 
production and cleanup.
    In January of 1943, Hanford, Washington was selected by the War 
Department to serve as a part of President Franklin Delano Roosevelt's 
Manhattan Project plan. The site was selected for several reasons: it 
was remotely located from populations center, which fostered security 
and safety. The Columbia River provided plenty of water to cool the 
reactors; and cheap and abundant electricity was available from nearby 
federal dams.
    The history of this era is a complicated one--farmers and tribes 
were displaced, given 30 days to move from their homes in central 
Washington. By March 1943, construction had started on the site, which 
covers about 625 square miles. At the time, the primary mission of the 
Hanford reservation was to build the B Reactor. As American scientists 
and their allies engaged in what was then perceived as a race with the 
Germans to develop nuclear capability, the B Reactor was built in 11 
months as the world's first large-scale plutonium production reactor. 
Quite simply, it was a stunning feat of engineering, which made 
significant contributions to U.S. national security during its 
production run, from 1944 through 1968. Plutonium from the B Reactor 
was used in the world's first nuclear explosion, called the Trinity 
test, in New Mexico on July 16, 1945; it was used in the ``Fat Man'' 
bomb dropped on Nagasaki, Japan on August 9, 1945; and it aided Cold 
War efforts until 1968.
    Mr. Chairman, the B Reactor was the first of an eventual nine 
nuclear reactors that remain on the banks of the Columbia River-a 
potent reminder of both the war effort and the costs of that Americans 
bore in the name of freedom.
    The people of Washington state, and especially the residents of the 
TriCities, are proud of their contributions to the World War II and 
Cold War efforts. We are left with these irreplaceable relics of the 
Manhattan Project--such as the B Reactor--which are incredibly 
important in understanding the engineering achievements that propelled 
this country into the nuclear age, with all of the complicated moral 
issues it poses for the possessors of such technology.
    As the Department of Energy continues its work to clean up the 
Hanford Site, the country's most contaminated nuclear reservation, it 
is important that-we also honor the achievements of the important work 
done here, as well as commemorate the tremendous sacrifices made by 
workers, displaced families and tribes, and this era's environmental 
legacy.
    There is already strong support in the communities that surround 
Hanford for preserving the history of the Manhattan Project, and I 
would like to commend the B Reactor Museum Association and Bechtel 
Hanford, Inc. for all their work to date. In recent years, they have 
worked hard to decontaminate, clean, inventory, and spruce up B 
Reactor's interior so that people can walk in to see three chambers. 
But more work needs to be done.
    Mr. Chairman, I would like to submit for the record testimony from 
Del Ballard, President of the B Reactor Museum Association, in support 
of S. 1687. 1 look forward to working with my colleagues to ensure 
passage of this bill, as the study it authorizes is a much-needed first 
step in determining the best options for preserving this important 
piece of American history.

    Senator Thomas. We are ready for panel one then, please. 
That would be Mr. Daniel Smith, Special Assistant, National 
Park Service, Department of the Interior.

       STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT, 
       NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Smith. Good afternoon, Mr. Chairman.
    Senator Thomas. Good afternoon. Welcome. You can go right 
ahead, Mr. Smith.
    Mr. Smith. I will try to summarize the four bills, Senator.
    Senator Thomas. Thank you.
    Mr. Smith. Mr. Chairman, thank you for the opportunity to 
present the Department of the Interior's views on S. 1306 and 
H.R. 1446 which would authorize the Secretary of the Interior 
to make matching historic preservation grants to the California 
Missions Foundation to restore and repair California's 
historically significant Spanish mission buildings.
    The Department opposes S. 1306 and H.R. 1446. We cannot 
support this new Federal funding commitment at a time when we 
are trying to focus our available resources on taking care of 
existing National Park Service responsibilities. Nor can we 
support legislative earmarks that would effectively take 
limited and critically needed historic preservation operations 
funding away and divert it these specific purposes under the 
National Historic Preservation Act.
    The Department strongly supports the principle that States, 
tribes, and local governments, not the Federal Government, are 
best suited to determine the highest priorities for awarding 
grants in each jurisdiction under the Historic Preservation 
Fund. This has been the guiding idea of the National Historic 
Preservation Act since its passage in the mid-1960's. There are 
many very worthy projects everywhere, including other 
individual and classes of historic buildings that are 
regrettably in need of assistance from the Historic 
Preservation Fund.
    We believe, however, that there are other sources of 
funding available for the restoration of the California 
missions. One national example is the Save America's Treasures 
program that awards grants for preservation and conservation 
work on nationally significant intellectual and cultural 
artifacts and nationally significant historic structures and 
sites. Each California mission is a national class property and 
would, we believe, compete favorably in the Save America's 
Treasures program. The Department would be more than happy to 
work with the California Missions Foundation to develop Save 
America's Treasures applications, as well as fund-raising 
strategies to accomplish this important work.
    Mr. Chairman, I will make a note for the record here. The 
Save America's Treasures grants are $33 million of the $77 
million that is part of the National Historic Preservation 
Grant program. Congress currently earmarks $15 million of that 
$30-something million each year, and that is why we say these 
significant missions in California could certainly qualify for 
that congressional earmarking.
    Mr. Chairman, thanks for the opportunity to testify on this 
bill.
    The second bill, Mr. Chairman, is H.R. 1521, Johnstown 
Flood National Memorial.
    Mr. Chairman, this bill would provide for additional lands 
to be included within the boundary of the Johnstown Flood 
National Memorial in the State of Pennsylvania. The amended 
bill, as passed by the House, would add six parcels of land to 
the boundary of the park to provide permanent protection for 
resources that are integral to the historic events that the 
park was established to commemorate.
    The Department supports the President's initiative to 
address the deferred maintenance backlog and taking care of our 
current responsibilities. However, in this instance, Mr. 
Chairman, we are faced with a unique situation concerning this 
boundary adjustment. The historic structures central to this 
acquisition have always been considered key components of the 
park, but were to be protected, maintained, and interpreted 
through a public/private partnership. However, that partnership 
can no longer perform this function based on financial 
problems. For this reason, the Department believes it is 
appropriate to move forward with this bill at this time.
    In 1986, the South Fork Fishing and Hunting Club Historic 
District was listed on the National Register of Historic 
Places. In 1989 the Park Service and residents of Saint Michael 
undertook a joint planning effort. As a result of that plan, 
there developed a structured partnership between the village 
and the Park Service designed to protect these buildings.
    Unfortunately, the Society now lacks the resources to 
continue to maintain the properties on their own. In 2000, the 
Society worked with a private nonprofit historic property 
development company to try to obtain private sector interest in 
purchasing the properties, but was unsuccessful.
    In 2001, the Park Service completed a special resource 
study and environmental assessment to evaluate options for 
protection and interpretation of the additional parcels of 
land. Based upon that report, Mr. Chairman, the Park Service 
proposed to add these parcels of land to the boundary of the 
park and to acquire these parcels in fee simple.
    If the Park Service were to acquire these buildings, we 
would explore the option of a public-private partnership to 
lease the buildings to the private sector for commercial and 
residential use under our historic leasing program.
    Mr. Chairman, that completes my remarks on this bill.
    Mr. Chairman, the third bill is S. 1430, a bill to 
authorize the Secretary of the Interior to conduct a special 
resource study on the Baranov Museum in Alaska.
    The Department supports S. 1430 with the minor 
modifications explained in this testimony.
    We believe this study would provide an opportunity to 
explore partnerships with a wide range of State, local, 
private, and other Federal entities for the purpose of 
protecting and interpreting important national and 
international cultural resources in the area the study would 
encompass.
    It is our understanding that the city of Kodiak and not the 
National Park Service will conduct and fund this study from 
statutory aid already received for preservation of the 
building. The National Park Service will provide technical 
assistance to apply the criteria for suitability and 
feasibility to designate the museum or the house as a unit of 
the National Park System.
    The Baranov Museum was designated a National Historic 
Landmark in 1962. The city of Kodiak owns the museum with 
management services provided by the Kodiak Historical Society. 
The society saved the building from the threat of demolition 
after the 1964 earthquake, and through their efforts there has 
been a lease since 1967 on the building.
    In 1963, the National Park Service first conducted a 
suitability and feasibility study of the house and grounds as a 
new area and prepared a master plan for a proposed Old Kodiak 
National Historic Memorial. At that time there were 
considerations of use around the property that precluded that 
moving forward.
    The National Park Service supports the opportunity to work 
with the city of Kodiak on this special resource study to 
ensure that all possibilities and alternatives for the future 
preservation of this National Historic Landmark are developed 
in full collaboration, consultation, and partnership with the 
community and its entities.
    Mr. Chairman, that concludes my remarks on S. 1430, and we 
have attached that small technical amendment to the bill.
    Mr. Chairman, finally, my testimony on S. 1687, to direct 
the Secretary of the Interior to conduct a study on the 
preservation and interpretation of the historic sites of the 
Manhattan Project for potential inclusion in the National Park 
System.
    The Department does not oppose S. 1687 if amended as 
described in this testimony. While we agree that it is wholly 
appropriate to study ways to preserve these sites where the 
nuclear age began, we are concerned about the feasibility for 
management of these sites by the National Park Service, as the 
sites involved extremely large facilities with tremendous 
potential costs of maintenance and possible issues about safety 
in some of the buildings.
    In light of the President's commitment to devote more 
resources to addressing the backlog of deferred maintenance in 
existing units of the National Park System, we have made an 
effort to curtail taking on new responsibilities. For this 
reason, we believe that the study should focus on evaluating 
alternatives for preservation and interpretation including 
what, if any, role might best be played by the National Park 
Service or other parties. We would suggest that S. 1687 be 
amended to specify that the study concentrate on those options, 
and we would be happy to work with the committee to develop an 
amendment for that purpose.
    If directed by Congress and if funds are made available, an 
NPS special resource study would build upon the efforts of the 
Department of Energy and its preservation partners, including 
the Atomic Heritage Foundation and the President's Advisory 
Council on Historic Preservation, which have already identified 
the most significant sites associated with the Manhattan 
Project.
    In 1999, recognizing the significance of the Manhattan 
Project, DOE prepared a study that identified eight 
``signature'' facilities as being the most important places for 
understanding the development of nuclear weapons at the end of 
World War II.
    In 2001, DOE partnered with the President's Advisory 
Council on Historic Preservation to conduct a survey of these 
eight facilities--all but two of these are under DOE 
ownership--and to make recommendations regarding their 
preservation.
    In 2001, through Public Law 107-66, Congress directed DOE 
to prepare a preservation plan for the Manhattan Project. Last 
fall DOE awarded the Atomic Heritage Foundation a grant to 
produce a report on how best to preserve the history of the 
Manhattan Project so that the public and future generations can 
better understand what the Manhattan Project was, its legacy, 
and lessons for today.
    Mr. Chairman, that concludes my testimony. I look forward 
to answering questions the committee may have.
    [The prepared statements of Mr. Smith follow:]

Prepared Statement of P. Daniel Smith, Special Assistant, National Park 
     Service, Department of the Interior, on H.R. 1306 AND S. 1446

    Thank you for the opportunity to present the Department of the 
Interior's views on S. 1306 and H.R. 1446 authorizing the Secretary of 
the Interior to make matching, historic preservation grants to the 
California Missions Foundation to restore and repair California's 
historically significant Spanish mission buildings and their associated 
historic artworks and artifacts. Under this bill, grants up to $10 
million over a 5-year period would be made through the authority of 
Section 101 of the National Historic Preservation Act.
    While the goal of this legislation is admirable, the Department 
opposes S. 1306 and H.R. 1446. We cannot support this new Federal 
funding commitment at a time when we are trying to focus our available 
resources on taking care of existing National Park Service 
responsibilities. Nor can we support legislative earmarks that would 
effectively take limited and critically needed historic preservation 
operations funding away and divert it to these specific purposes under 
the National Historic Preservation Act. The Department strongly 
supports the principle that States, tribes, and local governments not 
the Federal government are best suited to determine the highest 
priorities for awarding grants in each jurisdiction under the Historic 
Preservation Fund. This has been the guiding idea of the National 
Historic Preservation Act since its passage in the mid-1960s. Under the 
current process, the Department allocates blocks of funds to States and 
to Indian tribes who then, in turn, award funding to properties and 
projects that meet the most urgent needs within the individual 
jurisdiction. There are many and very worthy projects everywhere, 
including other individual and classes of historic building that are 
regrettably in need of assistance from the Historic Preservation Fund.
    The Department of the Interior does support efforts to preserve for 
this and future generations the story of Father Junipero Serra and the 
founding of California's incomparable chain of colonial-era missions. 
Over a 54-year period beginning in 1769, Serra, and his fellow Jesuits, 
followed later by the Franciscans, built with native Indian labor a 
chain of mission complexes that today stretch along the coast for 600 
miles from San Diego to Sonoma north of San Francisco. It is a rich 
story of tenacity, bravery, cultural conflict, greed, mistrust, and, 
ultimately, hope. As a nation, we are richer for Serra and his 
compatriot's struggles and for the labors of California's native 
peoples. We also are fortunate that so many of these remarkable 
historic places survive in California today. The Department recognizes 
that these missions are powerful tangible evidence of our nation's 
remarkable story and worthy of our care and attention.
    We believe, however, that there are other sources of funding 
available for the restoration at the California missions. One national 
example is the Save America's Treasures program that awards grants for 
preservation and conservation work on nationally significant 
intellectual and cultural artifacts and nationally significant historic 
structures and sites. Each California Mission is a ``national class 
property'' and would, we believe, compete favorably in the Save 
America's Treasures program as well in any other fundraising campaign. 
The Department would be more than happy to work with the California 
Missions Foundation to develop Save America's Treasures applications as 
well as fundraising strategies to accomplish this important work.
    We note that Section 3(c) of S. 1306 and H.R. 1446 requires 
detailed professional condition assessments and scopes of work to 
ensure that preservation and conservation needs are fully assessed, 
that the highest priority and most critical work is undertaken, and 
that any work supported by these grants meets the highest professional 
standards. The California missions are historic properties significant 
to every American citizen and we must ensure that any work done there 
is of the highest caliber.
    Should S. 1306 or H.R. 1446 move to a committee markup, we would 
suggest requiring a formal partnership role for the appropriate 
Catholic Church archdioceses where the missions remain active churches 
and in church ownership. Without the full partnership and support of 
the Church, the most effective and best long-term preservation of these 
national treasures cannot be assured.
    Mr. Chairman, thank you for the opportunity to provide our comments 
S. 1306 and H.R. 1446. This concludes my prepared testimony. I would be 
glad to answer any questions that you or the members of the committee 
may have.
                                 ______
                                 
                              On H.R. 1521
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 1521, a bill to provide for 
additional lands to be included within the boundary of the Johnstown 
Flood National Memorial in the State of Pennsylvania.
    The amended bill, as passed by the House, would add six parcels of 
land to the boundary of the park to provide permanent protection for 
resources that are integral to the historic events that the park was 
established to commemorate. Five of the parcels, totaling 2.33 acres, 
are approximately three miles from the park in the village of Saint 
Michael where the former South Fork Fishing and Hunting Club was 
located. The sixth parcel, comprising approximately 12 acres, is 
adjacent to the current boundary. Land acquisition costs for these six 
parcels are approximately $805,000. All parcels are for sale by willing 
sellers.
    The Department supports the President's Initiative to address the 
deferred maintenance backlog and taking care of our current 
responsibilities. In this instance, we are faced with a unique 
situation concerning this boundary adjustment. The historic structures 
central to this acquisition have always been considered key components 
of the park, but were to be protected, maintained, and interpreted 
through a public-private partnership. However, the partner can no 
longer perform this function, based on financial problems. For this 
reason, the Department believes it is appropriate to move forward with 
this bill at this time.
    Johnstown Flood National Memorial comprises nearly 165 acres in 
western Pennsylvania. The park's mission is to tell the stories of the 
events leading up to the Johnstown flood, of the flood itself, and of 
its effects on Johnstown and the nation. The addition of the South Fork 
Fishing and Hunting Club properties would significantly increase the 
park's capability to interpret the important events surrounding the 
Johnstown flood and the individuals associated with it.
    On May 31, 1889, a poorly maintained earthen dam breached, sending 
20 million tons of water down the Little Conemaugh Valley into 
Johnstown and other surrounding communities. A 36-foot wall of water 
rolled over the town at 40 miles per hour, flattening houses, trees, 
locomotives, and everything else in its path. By the disaster's end, 
2,209 people had perished in the flood, another 40 died in the weeks 
after from typhoid, and property damage was estimated at $17 million. 
It was the worst inland flood in the nation's history and the first 
test of the newly formed American Red Cross, headed up by Clara Barton.
    A pivotal part of the story revolves around the South Fork Fishing 
and Hunting Club, located in Saint Michael, which in 1879 had purchased 
an abandoned reservoir, repaired the old dam, and created a private 
lake and recreational area for its members. Because the dam was not 
properly constructed or maintained, it gave way after heavy rains 
pounded the area, overtaxing the Lake Conemaugh dam spillway and 
eventually causing the dam to fail.
    In 1986, the South Fork Fishing and Hunting Club Historic District 
was listed on the National Register of Historic Places at the state 
level of significance.
    In 1989, the Park Service and residents of Saint Michael undertook 
a joint planning effort, which produced the Preservation and 
Interpretation Plan for the South Fork Fishing and Hunting Club 
Historic District. This plan outlined concepts and guidance for basic 
visitor services, interpretation, cultural resource preservation and 
maintenance. As a result of the plan, there developed a structured 
partnership between the village of Saint Michael and the Park Service, 
designed to protect, maintain and manage the South Fork Fishing and 
Hunting Club clubhouse and other significant cottages in the historic 
district. The 1889 South Fork Fishing and Hunting Club Historical 
Preservation Society was formed to be the principal community body 
working with the Park Service in the implementation of the plan. Since 
the original planning efforts, the Society has obtained ownership of 
the Clubhouse, the Annex, the Moorehead Cottage, and the Brown Cottage. 
These properties were not originally included within the boundary of 
the park because it was understood that a local entity could adequately 
provide for their protection and interpretation.
    Unfortunately, the Society lacks the resources to continue to 
maintain the properties they own, let alone preserve and develop them 
according to approved plans. The Society is struggling to make mortgage 
payments, and while they are desperately seeking a solution, the 
properties are deteriorating and losing historic integrity. In 2000, 
the Society worked with a private, non-profit historic property 
development company to try and obtain private sector interest in 
purchasing the properties, but was not successful. There is an imminent 
threat to the protection of these resources. The private owner has 
already listed these historic structures and properties for sale on the 
open market.
    In 2001, the National Park Service completed a special resource 
study and environmental assessment to evaluate options for protection 
and interpretation of the additional parcels of land. Based upon the 
report, the Park Service proposed to add these parcels of land to the 
boundary of the park and to acquire the parcels in fee simple. Within 
the village of Saint Michael, four historically significant properties 
would be acquired. These structures include the former clubhouse of the 
South Fork Fishing and Hunting Club, the Clubhouse Annex, and two 
cottages built by club members. One undeveloped parcel, the Clubhouse 
Side-yard that sits between the Clubhouse and the Clubhouse Annex, 
would also be added. The final parcel would protect the historic 
viewshed of the park, preserving the rural character of the Unger House 
property (Elias Unger was president of the South Fork Fishing and 
Hunting Club), owned by the National Park Service.
    If the Park Service acquired the historic buildings, we would 
explore the option of a public-private partnership to lease the 
buildings to the private sector for commercial and residential use. 
Through our historic leasing program, the private sector could sign a 
long-term lease with the Park Service that would cover a portion of the 
operations and maintenance costs of the properties, which ranges from 
$75,000 to $310,000. In addition, the private sector could rehabilitate 
the buildings, estimated to cost upwards of $2.9 million, using private 
funds in return for federal historic preservation tax credits. This 
would decrease the financial burden placed on the Park Service by the 
addition of these properties to the park. There has already been 
interest expressed by local businesses in this proposal.
    The proposal to add these properties to the boundary of the park 
has widespread support among the property owners, state and local 
governments, and the public who attended a public meeting in July 2001 
in Saint Michael. Public comments received were unanimous in support of 
the proposal.
    We look forward to working with the local communities in Saint 
Michael and Johnstown to acquire these historically significant 
properties that will help tell the entire story of the events of the 
1889 Johnstown Flood, from the actions leading up to the flood through 
its devastating aftermath.
    Thank you for the opportunity to comment. This concludes my 
prepared remarks. I would be glad to answer any questions that you or 
the members of the committee may have.

                                 ______
                                 
                               On S. 1430

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1430, a bill to authorize the 
Secretary of the Interior to conduct a special resource study of the 
Baranov Museum. The Department supports H.R. 1430 with the minor 
modifications explained in this testimony. We believe that this study 
would provide an opportunity to explore partnerships with a wide range 
of state, local, private, and other federal entities for the purpose of 
protecting and interpreting important national and international 
cultural resources in the area the study would encompass. Therefore, we 
recommend including language in the bill that makes it clear that the 
study is meant to evaluate a range of alternatives (for the building 
and its collections), in addition to potential inclusion in the 
National Park System.
    It is our understanding that the City of Kodiak and not the 
National Park Service will conduct and fund this study from statutory 
aid already received for preservation of the building. The National 
Park Service will provide technical assistance to apply the criteria 
for suitability and feasibility to designate the museum as a unit of 
the National Park System.
    The Baranov Museum on Kodiak Island is the only surviving Russian 
building known to have been associated with both the Russian America 
Company and the Alaska Commercial Company. These companies were the 
pillars of the Russian and early American administration of Alaska, and 
shaped the face of northwestern America through commerce, 
administration, law enforcement and exploration. Preserved in 
tradition, the history of Russian America is nationally and 
internationally monumental to the legacy of Alaska. A hundred years 
before the purchase of Alaska and the investment of William Seward's 
folly in 1867, the northern reaches of this country were managed by the 
Russian American Company, a corporation set up by the Russian 
government to regulate the fur trade and other commercial enterprises. 
It operated as a colonial charter company similar to the English and 
Dutch East Indies Companies, which founded the colonies on our 
country's eastern seaboard.
    Around 1808, Alexander Baranov, manager of the Russian America 
Company, built the large two-story log warehouse overlooking the 
harbor. A shrewd manager, Baranov moved the corporation towards greater 
international collaboration, while at the same time integrating Alaska 
Natives into positions of power and equality. One hundred years later, 
leading merchant W.J. Erskine made the building his home. In addition, 
the building is one of only three remaining Russian period buildings 
extant in the Western Hemisphere. The Baranov Museum was designated a 
National Historic Landmark on June 2, 1962. The City of Kodiak owns the 
Baranov Museum, with management services provided by the Kodiak 
Historical Society. The Society saved the building from the threat of 
demolition after the 1964 earthquake and tsunami. Through their efforts 
it was leased in 1967 for use as a museum.
    In 1963, the National Park Service first conducted a suitability 
and feasibility study of the house and grounds as a new area and 
prepared a master plan for ``Proposed Old Kodiak National Historic 
Memorial.'' The proposal was not passed because of concern that the 
preservation of the building would conflict with industrial development 
and fuel storage near the dock on its boundaries. During the past 40 
years, the National Park Service has consistently provided technical 
assistance in the fields of historic preservation, maintenance, and 
interpretation to both the city and historical society through the 
National Historic Landmark program.
    The National Park Service supports the opportunity to work with the 
City of Kodiak on this special resource study to ensure that all 
possibilities and alternatives for the future preservation of this 
National Historic Landmark are developed in full collaboration, 
consultation, and partnership with the community and its entities. This 
special resource study will consider the criteria for suitability and 
feasibility as a new unit as one of several planning alternatives and 
desired futures for this building and its resources.
    This concludes my prepared remarks. I would be happy to answer any 
questions the committee may have.
    Proposed Amendment to S. 1430: On page 2, at the end of line 2, 
delete the period and add: ``as well as a range of other viable 
preservation and management alternatives.''

                                 ______
                                 
                               On S. 1687

    Mr. Chairman, thank you for the opportunity to present the 
Department's views on S. 1687, to direct the Secretary of the Interior 
to conduct a study on the preservation and interpretation of the 
historic sites of the Manhattan Project for potential inclusion in the 
National Park System.
    The Department does not oppose S. 1687, if amended as described in 
this testimony. This study would provide an opportunity to determine 
appropriate ways to preserve and interpret resources associated with 
the Manhattan Project, through which the United States developed the 
atomic bomb during World War II. While we agree that it is wholly 
appropriate to study ways to preserve the sites where the nuclear age 
began, we are concerned about the feasibility for management of these 
sites by the National Park Service (NPS), as the sites involve 
extremely large facilities with tremendous potential costs of 
maintenance and possible issues about safety in some of the buildings. 
In light of the President's commitment to devote more resources to 
addressing the backlog of deferred maintenance in existing units of the 
National Park System, we have made an effort to curtail taking on new 
responsibilities. For this reason, we believe that the study should 
focus on evaluating alternatives for preservation and interpretation 
including what, if any, role might best be played by the NPS or other 
partners. We would suggest that S. 1687 be amended to specify that the 
study concentrate on those options, and we would be happy to work with 
the committee to develop an amendment for that purpose.
    The NPS is in various stages of progress on 34 studies previously 
authorized by Congress, 23 of which are being funded through the 
special resource study budget. We completed five studies in FY 2003, 
and we expect to complete about nine in FY 2004. Our highest priority 
is to complete these pending studies, though we expect to start newly 
authorized studies as soon as funds are made available. Given the type 
of facilities involved, the study authorized by S. 1687 is anticipated 
to cost more than most studies, which average around $250,000. We 
estimate that this study would cost between $500,000 and $750,000 
assuming that we could rely on available data, including environmental 
evaluations, to make initial determinations about the structural 
condition of the facilities and the status of potential hazardous 
materials.
    S. 1687 directs the Secretary of the Interior to conduct a special 
resource study on the Manhattan Project sites in accordance with the 
law governing these studies, section 8(c) of Public Law 91-383, except 
for the provision that calls for the study to be completed in three 
years after funding is made available. Section 4(b) of S. 1687 requires 
the study to be completed in one year. We would recommend that this 
section be amended to provide the usual three years for completing the 
study.
    The study area designated by S. 1687 includes: (1) Los Alamos 
National Laboratory and the town of Los Alamos in New Mexico; (2) the 
Trinity Site on the White Sands Missile Range, also in New Mexico; (3) 
the Hanford Site in Washington; (4) Oak Ridge Laboratory in Tennessee; 
and (5) other significant sites relating to the Manhattan Project 
determined by the Secretary. The four sites named in the bill are 
generally viewed as the most important sites related to the Manhattan 
Project and are the areas in which the National Park Service would 
focus the study, but we think it is appropriate to include the 
flexibility to study other areas as well.
    Operating from December, 1942 until September, 1945, the Manhattan 
Project was a $2.2 billion effort that employed 130,000 workers at its 
peak, but was kept largely out of public view. Like so many of the 
national mobilization efforts of American industry and agriculture that 
led to the Allied victory in World War II, the Manhattan Project 
illustrates how the federal government worked with the private sector 
to carry out basic and applied scientific research at a scale unheard 
of before the war. This nationwide project had significant results 
shortening the war and averting an invasion of Japanese home islands. 
The introduction of nuclear weaponry to our nation's arsenal changed 
forever world history and has been recognized as one of the most 
important events of the twentieth century.
    If directed by Congress and if funds are made available, a NPS 
special resource study would build upon the efforts of the Department 
of Energy (DOE) and its preservation partners, including the Atomic 
Heritage Foundation and the President's Advisory Council on Historic 
Preservation, which have already identified the most significant sites 
associated with the Manhattan Project.
    In 1999, recognizing the significance of the Manhattan Project 
sites, DOE prepared a study that identified eight ``Signature 
Facilities'' as being the most important places for understanding the 
development of nuclear weapons at the end of World War II. Seven of the 
eight facilities are within the four study areas specifically named in 
S. 1687. The eight facilities are:

  <bullet> Metallurgical Laboratory, University of Chicago (Chemistry 
        Building and CP-1 site). In August 1942, ``Met Lab'' isolated 
        the first weighable amount of plutonium. The Chemistry Building 
        is now a National Historic Landmark. On December 2, 1942, CP-1 
        (Fermi's ``pile'' at Stagg Field) produced the first self-
        sustaining nuclear reaction.
  <bullet> X-10 Graphite Reactor, Oak Ridge. Built in 1943, this 
        facility was designed as the pilot for the Hanford production 
        reactors. It produced the first significant amounts of 
        plutonium. It is a National Historic Landmark.
  <bullet> K-25 Gaseous Diffusion Process Building, Oak Ridge. 
        Completed in 1945, this U-shaped building measures half a mile 
        by 1,000 feet. Gaseous diffusion was one of three isotope 
        separations processes that provided uranium-235 for the 
        Hiroshima weapon (``Little Boy''). Gaseous diffusion was the 
        only uranium enrichment process used during the Cold War.
  <bullet> Y-12 Beta-3 Racetracks, Oak Ridge. This facility produced 
        uranium-235 for the Hiroshima weapon. It is the only surviving 
        production-level electromagnetic isotope separations facility 
        in United States.
  <bullet> B Reactor, Hanford. Completed in 1944, this was the world's 
        first large-scale plutonium production reactor. It produced 
        plutonium for the Trinity device, the Nagasaki weapon (``Fat 
        Man''), and Cold War weapons. It is a National Historic 
        Mechanical Engineering Landmark.
  <bullet> Chemical Separations Building (T Plant), Hanford. Completed 
        in 1944-45, this plant separated plutonium out of production 
        reactor fuel rods. It is a massive canyon-like structure that 
        stands 800 feet long, 65 feet wide, and 80 feet high.
  <bullet> V-Site Assembly Building, Los Alamos. This building is among 
        the last remaining Manhattan Project buildings at Los Alamos. 
        The trinity device and later weapons were assembled here. Other 
        buildings at this site were destroyed by the Cerro Grande fire 
        in 2000.
  <bullet> Trinity Site, Alamogordo. The July 16, 1945 test at this 
        site began the atomic age. The site is now part of White Sands 
        Missile Range, owned by the Department of Defense. It is a 
        National Historic Landmark.

    In 2001, DOE partnered with the President's Advisory Council on 
Historic Preservation to conduct a survey of these eight facilities 
(all but two are under DOE ownership) and to make recommendations 
regarding their preservation. The panel of experts who participated in 
the study determined that each of the sites qualify not only for 
National Historic Landmark status, but also as World Heritage sites. In 
2001, through Public Law 107-66, Congress directed DOE to prepare a 
preservation plan for the Manhattan Project. The FY 2004 Energy and 
Water Appropriations Act provided $1 million to DOE to support 
preservation of the Manhattan Project sites. Last fall, DOE awarded the 
Atomic Heritage Foundation a grant to produce a report on how to best 
preserve the history of the Manhattan Project so that the public and 
future generations can better understand what the Manhattan Project 
was, its legacy, and lessons for today. The report will address: 1) the 
Manhattan Project buildings, artifacts, and other aspects of the 
history that should be preserved; 2) the estimated costs of 
restoration, preservation and long-term stewardship of these 
properties, and 3) what roles federal, state, and local government 
agencies, nonprofits, the private sector and others might play in 
preservation and stewardship. An interim report was presented to 
Congress in September 2003.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or other members of the subcommittee may have.

    Senator Thomas. Thank you.
    Who manages the Save America's Treasures fund?
    Mr. Smith. The National Park Service. Our cultural 
resources portion of the Park Service manages that, and it is a 
fund that provides money to the States on an apportioned basis, 
to Indian tribes, to historically black colleges, and I believe 
there is one other small component of it, but right now escapes 
me. But that fund is coordinated by the National Park Service.
    The Save America's Treasures is part of that, Senator, and 
that has other agencies of Government that make determinations 
of how those grants will be done. Because it involves libraries 
and museums, we defer to other Federal panels to make those 
decisions and then we act on their recommendations.

    NOTE: The Department of the Interior would like to revise its 
answer to the following question:

    Question. Who Manages the Save America's Treasures Fund?
    Answer. To clarify, the National Park Service manages it on behalf 
of the Secretary of the Interior. Save America's Treasures grants are 
one part of the larger annual appropriations to the Historic 
Preservation Fund--derived from Outer Continental Shelf receipts and 
authorized by the National Historic Preservation Act (16 U.S.C. 470). 
The Fund provides assistance to States, tribal and local governments, 
colleges and universities, not-for profit organizations, and individual 
property owners to preserve this nation's significant historic places. 
While the Save America's Treasures appropriations law requires the 
National Park Service to consult in grant selection and administration 
with a wide variety of organizations such as the National Endowment for 
the Arts and the President's Committee on the Arts and Humanities, 
overall administration, management, and accountability for the program 
rests with the National Park Service.

    Senator Thomas. I presume there are missions in other 
States in addition to California. What is the role of the Park 
Service in the management and the operation of historic 
missions?
    Mr. Smith. Mr. Chairman, there are missions in other 
States, Texas, Arizona, New Mexico, and California. Twenty-six 
missions or mission related structures or ruins are in the 
National Park System. Congressman Farr alluded to the San 
Antonio missions in Texas which came into the system through 
act of Congress in 1978. The other is in New Mexico, a site--I 
am blanking on the name right now, but it is a site that has 
three missions and three Indian pueblos. That came into the 
system in 1909 from having been a National Monument designated.
    Other than that, we provide technical assistance on these 
issues. We have a historic trail that certainly involves 
interpreting these, but we do not have any other sites within 
the National Park System.

    NOTE: The Department of the Interior would like to revise its 
answer to the following question:

    Question. I presume there are missions in other States in addition 
to California. What is the Role of the National Park Service in the 
Management and the operation of Historic Missions?
    Answer. I would like to clarify my remarks during the hearing. The 
National Park Service manages a total of 26 historic, Spanish Colonial-
era missions or mission-related structures or ruins within 4 National 
Park units in 3 States (4 missions, buildings, or ruins in Arizona, 12 
in New Mexico, and 10 in Texas):

          Tumacacori National Historic Park, Arizona

          1 standing, restored mission church--not in use--San Jose' de 
        Tumacacori
          2 mission church ruins--Los Santos Angeles de Guevavi and San 
        Cayetano de Calabasas
          1 mission church--archeological remains only--San Jose' de 
        Tumacacori (earlier mission church)

          Pecos National Historical Park, New Mexico

          4 mission churches--ruins and archaeological remains--all 
        called Nuestra Senora de los Angeles de Porciu'ncula de Pecos

          Salinas Pueblo Missions National Monument, New Mexico

          5 mission churches in ruins located at 3 pueblos (Abo', 
        Quarai, and Las Humanas (Gran Quivira))--the mission churches 
        are: San Gregorio de Abo (2 mission churches), Purisima 
        Concepcion de Quarai, and San Buenaventura de las Humanas (2 
        mission churches). In addition, 3 other ruined structures that 
        were historically used as interim mission churches (Abo', 
        Quarai, and Las Humanan (Gran Quivira)

          San Antonio Missions National Historical Park, Texas

          4 standing mission churches still in use by the Catholic 
        archdiocese (Purisima Concepcion de Acuna, San Jose y San 
        Miquel de Aguayo, San Francisco de las Espada, and San Juan 
        Capistrano. In addition there are 6 mission church ruins used 
        as earlier versions of the extant mission churches--1 at 
        Concepcion, 1 at San Jose, 1 at Espada, and 2 at San Juan.

    And while the National Park Service often provides technical 
assistance and advice to owners of properties listed on the National 
Register of Historic Places or designated as National Historic 
Landmarks, we have no other management or operational responsibilities 
for any other Spanish Colonial era missions.

    Senator Thomas. This Johnstown Flood Memorial. If you 
manage those properties through a historic leasing program, 
does that ensure the public has access to them?
    Mr. Smith. Senator, it does. We are having a lot of success 
with this historic leasing program. The committee may have 
heard testimony in the past years on the Hot Springs site in 
Arkansas where we out-lease their facilities. We are looking at 
this leasing authority in Cape Cod, Massachusetts, for some 
rather unique structures that are in that unit of the system.
    Yes, it provides for public access, but it allows a wide 
range of uses. It could be a bed and breakfast. It could be a 
restaurant, but the Park Service would interpret the building. 
The facades would all be preserved and you would be able to 
interpret the structures from outside.
    In Johnstown, there is one of these buildings that 
currently has apartments in it. So the upstairs would probably 
be for residents, but the downstairs and the exterior would 
still be interpreted.
    Senator Thomas. What would this be part of then? What is 
the Johnstown Flood? It is a memorial?
    Mr. Smith. It is a National Historic Site. I'm sorry. 
National Memorial.
    Senator Thomas. I looked at a map of it. It was kind of 
unclear to me. Is this in the same area, I mean, the same land 
as the other?
    Mr. Smith. I actually have a map that we can provide to the 
committee, if we have not already. It actually is where the dam 
was for this private clubhouse and lodge. It was a fishing 
lake, and when that dam gave way, then of course, the flood 
happened many miles downstream in Johnstown. One parcel is 
immediately adjacent to the current boundary that we have for 
the memorial, the other five parcels are nearby.

    NOTE: The Department of the Interior would like to revise its 
answer to the following question:

    Question. I looked at a map of it. It was kind of unclear to me. Is 
this in the same area, I mean, the same land as the other?
    Answer. To clarify, there are six parcels that the bill proposes to 
add to the boundary of the park. Five of the parcels, totaling 2.33 
acres, are approximately three miles from the park in the village of 
Saint Michael where the former South Fork Fishing and Hunting Club was 
located. The sixth parcel, comprising approximately 12 acres, is 
adjacent to the current boundary.

    Senator Thomas. I see, OK.
    And then these others, the Kodiak one and the Manhattan, 
are both studies.
    Mr. Smith. Yes. The Alaska study is rather straightforward. 
The building is significant. It is already a National Historic 
Landmark. And the study already has funds appropriated. Funds 
were appropriated for it in fiscal year 2002. So it is a matter 
of moving forward to coordinate with the city and other 
interested parties and conduct the study to see what is most 
feasible for that location.
    Senator Thomas. Do you have any idea how many sites could 
potentially be associated with this Manhattan Project?
    Mr. Smith. As the testimony said, Senator, we would 
probably follow the very excellent work that DOE has 
coordinated both as a Department and with the Advisory Council 
on Historic Preservation. The bill lends itself toward these 
eight, of which four are already National Historic Landmark 
properties.
    I am not here today at all to say that these are not 
historically significant, just as the missions in California 
are very historically significant. A study would not be really 
trying to figure out their suitability. It would really lean 
toward the feasibility of how we would open and interpret and 
maintain these sites in future years if they moved from out of 
the DOE type of needs for those areas and moved into the 
National Park System.

    NOTE: The Department of the interior would like to revise its 
answer to the following question:

    Question. Do you have any idea how many sites could potentially be 
associated with this Manhattan Project?
    Answer. I would also like to clarify my response to your question 
about how many sites could be potentially associated with the study of 
the Manhattan Project sites under S. 1687. The study would focus on the 
four areas specifically named in the bill: Los Alamos National 
Laboratory and the town of Los Alamos; the Trinity Site on the White 
Sands Missile Range; the Hartford Site; and the Oak Ridge Laboratory. 
Within those areas are seven of the eight ``Signature Facilities'' 
already identified by the Department of Energy as being the most 
significant to the development of nuclear weapons at the end of World 
War II. While S. 1687 would authorize the study to look at ``other 
significant sites relating to the Manhattan Project determined by the 
Secretary,'' we know that, based on the work done the Department of 
Energy and the President's Advisory Council on Historic Preservation, 
that it is unlikely that the scope of the study would go beyond the 
areas listed in S. 1687.
    The study would examine the national significance, suitability and 
feasibility for these bites to determine whether they merit inclusion 
in the National Park System. Even if they met the National Park 
Service's criteria in those three areas, the study would evaluate other 
options for management besides direct management by the National Park 
Service. Because of the size, complexity of these sites, and the 
potential costs of managing them, this study would likely focus on 
alternatives other than direct National Park Service management, but 
might include options where the National Park Service would have a role 
in assisting with interpretation.

    Senator Thomas. Well, as you know, some of us--and I am one 
who has been urging the Park Service to try and identify and 
describe a little more clearly what qualifies, what really 
should be set aside as a historic site. We are beginning to get 
more of them than we might be able to handle. Obviously, there 
are some that are very important, but we need to begin to 
identify what the criteria is for one, I believe.
    Mr. Smith. I am aware of those discussions you have had 
with our director, Senator.
    Senator Thomas. It may be a little out of line, but if you 
two have any questions, short questions. Please do not take too 
long, but if you have one, why----
    Senator Boxer. Actually just a couple of comments. Sam will 
go first.
    Mr. Farr. Mr. Chairman, I want to take issue because I 
think there was a misstatement of fact here to the committee. 
We worked hard in drafting this bill. As you see in the bill, 
on page 5, line 25, it says that the Secretary may make grants 
to the California Missions Foundation. It is permissive, not 
mandatory.
    It also said that the Secretary shall ensure, as provided 
in section 101(e)(4), that it shall remain secular. There is no 
mention of the National Historic Preservation Act as the 
funding source. In fact, the bill goes on to say on page 7 that 
the money in this is in addition to any funds that are made 
available for preservation efforts to the State of California 
under the existing fund. So this is in addition to. It is no 
part of. It is a separate authorization to allow the Federal 
Government, when the grants have been requested, when the 
applications have been submitted by this nonprofit entity in 
California, who have to outline exactly how the money is going 
to be spent through this professional review board. It does not 
require the Federal Government to own the asset or to have to 
manage it or worry about it forever. This is an ability to try 
to keep these precious monuments from falling down.
    I might say that the Department submitted a letter to the 
House 3 days before we passed it on the floor. We did have a 
floor discussion on it, and the Department's letter was wrong 
because it said it has to make the money available through the 
Historic Preservation Act.
    And it went on to say that the bill grants up to $10 
million over a 5-year period made through the authority of 
section 101 of the National Historic Preservation Act, and 
therefore the Department opposes this legislation. That is just 
an incorrect statement. It is not in the legislation, and I 
have asked the Department to show me where they found that, and 
they have not been able to find it because it is not there.
    So for the record, I want to point out for sure that this 
is not competing with existing limited funds.
    Senator Boxer. And I would just conclude in very quick 
order here. I am very concerned with this testimony because I 
know people make mistakes, but I tried to talk to my friend 
here about this. This is just plain wrong. It says, grants up 
to $10 million would be made through the authority of section 
101 of the National Historic Preservation Act. The fact is the 
only reference to that in the bill, as Sam said, is to make 
sure we avoid church-state issues. This is an extra amount of 
money that is in fact just for these missions that are falling 
down at a very rapid rate, and we are losing our history of 
this country and of California. So it is wrong here. It was 
wrong.
    The original letter that I am holding up here, that was 
doubly wrong. They had other things wrong. They said in this 
letter, the Secretary is authorized to make matching Historic 
Preservation grants to the California Missions Foundation to 
restore and repair historically significant missions. In 
addition, grants of up to $10 million over a 5-year period. 
This is like you looked at different legislation.
    Last, they say in the beginning, we cannot support this. It 
is taking money from other places. And then they say, oh, in 
the next page, go to Save America's Treasures. By the way, the 
average grant there is $268,000. We do not want to take money 
away from these other things.
    And then last, they talk about in the end if this does 
pass, you should not pass it the way it is. You should do a 
partnership with the Catholic church. As well they know, if we 
do that, this legislation will not pass because it will be so 
controversial.
    Anyway, I hope you will be with us on this, Mr. Chairman. 
This has so much strong support and I am disappointed. I know 
that the administration loves the missions. They have told me 
we love your missions. That is good. But it does not help to 
have love and no support.
    Senator Thomas. Well, they are entitled to an opinion, of 
course.
    Senator Boxer. Yes, right. They are.
    Senator Thomas. Thank you very much.
    Did you want to say anything, Mr. Smith?
    Mr. Smith. I would like to just rebut or at least discuss 
that. I would like to submit into the record the letter that 
went to Mr. Pombo on October 17th so that you will have that 
since it was referred to.
    Senator Thomas. Thank you.
    [The letter to Mr. Pombo follows:]

                   U.S. Department of the Interior,
                                     National Park Service,
                                  Washington, DC, October 17, 2003.
Hon. Richard W. Pombo,
Chairman, Committee on Resources, U.S. House of Representatives, 
        Washington, DC.
    Dear Mr. Chairman, I am writing to express the views of the 
Department of the Interior on H.R. 1446, a bill to support the efforts 
of the California Missions Foundation to restore and repair the Spanish 
colonial and mission-era missions in the State of California and to 
preserve the artworks and artifacts of these missions. I have been 
advised that the bill will be brought to the House floor without an 
opportunity for the Department to testify and present our position on 
this bill.
    Under this bill, the Secretary of the Interior is authorized to 
make matching, historic preservation grants to the California Missions 
Foundation to restore and repair California's historically significant 
Spanish mission buildings and their associated historic artworks and 
artifacts. In addition, grants up to $10 million over a 5-year period 
would be made through the authority of Section 101 of the National 
Historic Preservation Act. The Department opposes this legislation.
    The Department is wholly supportive of any efforts to preserve for 
this and future generations the story of Father Junipero Serra and the 
founding of California's incomparable chain of colonial-era missions. 
However, because budgetary constraints so limit appropriations from the 
Historic Preservation Fund, we cannot support legislative earmarks that 
would effectively take needed historic preservation operations funding 
away from state, tribal, and local governments and divert it to these 
specific (albeit laudable) purposes under the National Historic 
Preservation Act.
    The Office of Management and Budget advises that from the 
standpoint of the Administration's program there is no objection to the 
presentation of this report for the consideration of the Congress.
            Sincerely,
                                            A. Durand Jones
                                                    Deputy Director
                                 ______
                                 
                   U.S. Department of the Interior,
                                     National Park Service,
                                  Washington, DC, October 17, 2003.
P. Daniel Smith,
National Park Service, Washington, DC.
    Subject: Stuff for Hearing
    Info Requested at our briefing today:
    Save America's Treasures Grants to Churches (there are more than I 
thought):


------------------------------------------------------------------------

------------------------------------------------------------------------
Old North Church.............  Boston, MA.....       2003       317,000
Touro Synagogue..............  Newport, RI....       2003       375,000
Mission Concepion............  San Antonio, TX       2003       215,000
Eldridge Street Synagogue....  NYC............       2003       300,000
Old Dutch Church.............  Kingston, NY...       1999        98,768
San Juan Capistrano..........  SJC, CA........       2000       320,000
San Jose de Tumacacori.......  Tumacacori, AZ.       1999        85,500
------------------------------------------------------------------------
The last 3 were earmarks


    As you can see, we have three missions here as well, 1 in CA, 1 in 
AZ, and 1 in TX.
    As far as Save America's Treasures grant levels:


------------------------------------------------------------------------

------------------------------------------------------------------------
Collections.....................  min = 50,000......  max = 1 million
Buildings.......................  min = 250,000.....  max = 1 million
------------------------------------------------------------------------


    Did I remember everything? That it?
                                  de Teel Patterson Tiller,
                     Deputy Associate Director, Cultural Resources.

    Mr. Smith. I will not speak for our legislative counsel who 
reviews these bills, but there is no specific site in the bill 
creating anything outside the National Historic Preservation 
Fund. And Senator, that is the only mechanism which the Park 
Service has in all of our programs to fund non-Federal 
properties through a grant program.
    The reference made at the end of the bill goes back and 
refers to this fund, and what it says is that these additional 
funds, if they were appropriated, would not take away from what 
California receives under the apportionment it gets now. Out of 
the $34 million that goes to the States, California gets just a 
little bit under $1 million. So the interpretation there is 
that whatever amount they would get under this act that was 
earmarked, it would not then subtract from California getting 
its normal apportionment under the act.
    The Senator and I were sort of having that discussion 
before the hearing, and I hope she did not take any of my 
remarks to be anything except a little bit feisty. I certainly 
did not mean to be rude to her at all.
    Senator Boxer. No. I was feisty. You were very sweet.
    [Laughter.]
    Senator Thomas. OK, thank you. We are going to call up the 
next panel now. Thank you very much.
    Panel two then is Walter Costlow, founder and chairman of 
the South Fork Hunting and Fishing Club, Lakeland, Florida; Mr. 
Barry Lynn, the executive director of Americans United in 
Support of Separation of Church and State; Cynthia Kelly, 
president of the Atomic Heritage Foundation; Stephen Hearst, 
vice president and general manager, Sunical Realties, San 
Francisco, California. I guess that is it.
    Thank you all for being here. We will put your complete 
statements in the record. So if you are inclined to summarize 
fairly briefly, why, we would all, I think, appreciate that.
    Why do we not start with Mr. Costlow.

  STATEMENT OF WALTER COSTLOW, FOUNDER AND CHAIRMAN, THE 1889 
    SOUTH FORK HUNTING AND FISHING CLUB PRESERVATION SOCIETY

    Mr. Costlow. Mr. Chairman, I thank you for the opportunity 
to present the views of The 1889 South Fork Fishing and Hunting 
Club Historical Preservation Society on H.R. 1521, a bill to 
provide for additional lands to be included within the boundary 
of the Johnstown Flood National Memorial in the State of 
Pennsylvania.
    The Johnstown Flood National Memorial comprises nearly 165 
acres in western Pennsylvania. The park's mission is to tell 
the stories of events leading up to the great Johnstown Flood 
of May 31, 1889, and of the flood itself and the impact on 
Johnstown and the Nation. The addition of The 1889 South Fork 
Fishing and Hunting Club Historical Preservation Society 
properties would significantly increase the park's capability 
to interpret the important events surrounding the Johnstown 
Flood and the individuals associated with it.
    In 1989 the National Park Service and the Historical 
Society undertook a joint planning effort that produced the 
preservation and interpretation plan for the South Fork Fishing 
and Hunting Club Historic District. As a result of this plan, 
there developed a structured partnership between the National 
Park Service and the Historical Society designed to protect and 
maintain the historic properties by entering into a cooperative 
agreement that is still in force. It is very, very important to 
understand that all the properties were privately owned at this 
time. Over the years, through the wonderful generosity of the 
Winston Corporation of Johnstown, we were able to acquire the 
four properties in question. The most important document of the 
support package is The 1889 South Fork Fishing and Hunting Club 
Historical Preservation Society's 2020 strategic plan. I 
developed it to enumerate the important accomplishments in 
order to create the foundation to inspire the society to face 
the future with confidence toward achieving greater success by 
year 2020.
    The proposal to add these properties to the boundary of the 
park has widespread support among the owners, State and local 
governments, and the public who attended our last public 
meeting in July 2001. Public comments received in support were 
unanimous in support of the proposal. This is the second time 
that public approval was in support. In May 1989, I wrote the 
Historic District ordinance and conducted a large public 
meeting to explain and answer questions. I then held a secret 
ballot vote and had only one vote against. That individual 
wanted the whole town included in the ordinance. The Historic 
District Ordinance Number 69 was approved by the Pennsylvania 
Historical and Museum Commission.
    On November 9, 1995, I was asked by the Southwestern 
Pennsylvania Heritage Preservation Commission to provide my 
views on the ability to sustain heritage development in 
southwestern Pennsylvania for the long-term future, which is 
really what this hearing is all about. My comments then are 
valid today. It is no secret that the heritage preservation 
effort in southwestern Pennsylvania would not have been 
possible without the direct involvement of the U.S. Government 
and the power and resources it represents. I personally would 
not have undertaken the National Register Historic District 
Project in St. Michael without this support. I am positive that 
most, if not all, of the other site managers shared the same 
opinion. We were all able to identify with the support 
resources that would make our projects achievable with a 
reasonable chance of success.
    In addition, we could focus on the Southwestern 
Pennsylvania Heritage Preservation Commission because the 
commission staff had absolute control of development resources, 
plain and simple. Not only was this fact known to those 
directly involved, but it also enabled the heritage project to 
be accepted and reasonably supported by the general public and 
local officials of the various communities.
    Unfortunately, even with the knowledge of the U.S. 
Government's direct support, only a very small percentage of 
the total population was interested. I know our program in St. 
Michael was one of the best supported programs in the heritage 
project, if not the best. I was disappointed in the lack of 
interest of our citizens to the importance of the project to 
community pride and to the economic potential it represented.
    Now that the congressional time limit for the South Fork 
Fishing and Hunting Club Historical Preservation Society is 
expiring, the future is uncertain. As we transition to a 
nonprofit corporation without direct Federal management, our 
biggest concern is the attitude and willingness of everyone to 
continue believing in the overall and individual projects as 
achievable. Whether we like it or not, the transition will 
create a dramatic change from one of assured resources and 
power to one completely dependent on volunteer cooperation and 
support.
    The Historic District project in St. Michael would not have 
been possible without U.S. Representative John Murtha's 
support. I was one of the six individuals, including 
Congressman Murtha, who met in The 1889 Clubhouse in December 
1986 to launch this project. When he asked me form the local 
historic society, I told him I would give him my total effort 
and support if he would do the same. I must take this occasion 
to say for the record that we both carried out that commitment.
    Finally, The 1889 South Fork Fishing and Hunting Club 
Historical Preservation Society's dedicated volunteers and the 
National Park Service have done a tremendous job over the years 
in preserving this vital piece of our history.
    The approval of H.R. 1521 is the only way--is the only 
way--that will ensure that these historic structures will 
survive for the enjoyment of future generations.
    Failure to approve H.R. 1521 would be a devastating blow to 
the entire Johnstown area.
    This completes my oral presentation. I welcome any 
questions the committee might have. Thank you, sir.
    Senator Thomas. Thank you.
    I think, if I might, I am going to go to Ms. Kelly. Please.

   STATEMENT OF CYNTHIA C. KELLY, PRESIDENT, ATOMIC HERITAGE 
                           FOUNDATION

    Ms. Kelly. Thank you very much. It is a pleasure to be 
before the committee. I am president and founder of the Atomic 
Heritage Foundation, which was mentioned earlier. We have been 
very involved in studying the Manhattan Project, the properties 
that remain and strategies for trying to preserve them for the 
future.
    This legislation by the committee is very timely. We are 
very appreciative of the support that we have had from Senators 
Bingaman and Cantwell of the committee, as well Senators 
Murray, Domenici, and in the House, Doc Hastings who are all 
sponsors of this legislation.
    I want to talk about the importance of the study briefly, 
its urgency, in light of the Department of Energy's cleanup 
program, local and national support, and some practical 
considerations.
    Action is urgently needed to ensure that some of these 
original properties are preserved. As you know, the Manhattan 
Project was the effort to produce the world's first atomic 
bombs in World War II that brought an end to that war and, some 
would say, to all successive wars of that scale. From first of 
a kind industrial facilities to the alphabet houses built for 
families in the secret cities of the Manhattan Project, the 
study bill provides an opportunity to explore alternative 
strategies to ensure that the American people and future 
generations have some tangible evidence of this monumental 
undertaking that changed the course of world history. There is 
no question of the national and international significance of 
this and the facilities.
    But why is it so urgent? The Department of Energy has a 
very ambitious, accelerated cleanup program for the nuclear 
weapons complex sites. It is funded on the order of $6 billion 
to $8 billion a year. As a result, there is tremendous pressure 
on the Department's managers to decommission and demolish 
properties that are not essential to the current mission. Most 
of the Manhattan Project properties fall in this category. Many 
officials at the Department of Energy responsible for 
environmental management explain they are not in the museum 
business. In their view other entities must take responsibility 
for the long-term stewardship of these properties if they are 
to survive.
    For example, the manager of the Richland office has 
challenged the community to find an alternative to managing the 
B reactor that Senator Cantwell just mentioned, the first 
plutonium production reactor built by DuPont in September 1944. 
If not, the Department plans to cocoon it or strip it down to 
the reactor core and clad it in aluminum sheeting while it 
awaits disposition. The cost of just the first step, the 
cladding, is a $15 million project and tens of millions more.
    Meanwhile, over the last couple of years, the Department 
has put a lot of money to make this B reactor meet the code for 
the Environmental Protection Agency and OSHA for use as a 
museum and there is a memorandum of agreement that it can be 
used as a museum until the year 2012. It seems to me that we 
need to look now before, in the next couple of years, this 
valuable historic research is derailed into the wasteland of a 
scrap heap where, alternatively, for far less cost we can make 
sure that it is a museum for posterity.
    The legislation has enthusiastic support from many 
quarters. Last spring the Atomic Heritage Foundation, in the 
process of putting this report together that has been mentioned 
several times, had meetings at Hanford, that is, in Richland, 
Washington, and at Oak Ridge with the public, with the 
Department of Energy, with National Park Service 
representatives to begin to explore these questions. What 
should we do about these properties? What alternatives are 
there?
    The primary cost-cutting recommendation that emerged from 
this meeting was to seek legislation like S. 1687. The bill 
responds to a significant constituency for those who are proud 
of this past and also see opportunities for heritage tourism 
and economic development in their communities, their regions, 
and their States.
    As the legislation recognizes, the Department of Energy 
will play an important role in the study by clarifying the 
integrity and the contributions of its Manhattan Project 
properties, as well as addressing environmental contamination, 
national security, and other issues.
    Secretary Abraham recently charged his staff with coming up 
with a strategic plan for managing all of the Department's 
historic resources. This plan should complement and inform the 
study. The long-term strategy needs to be flexible and 
anticipate changing roles by the Department of Energy as it 
completes its cleanup and access to the sites may be opened up.
    A 1-year deadline or a quick deadline for the study ensures 
that it reasonably meshes with the Department of Energy's 
decisionmaking schedule for its cleanup.
    Senator Thomas. Could you wind up please?
    Ms. Kelly. I am sorry. Is that the end?
    Senator Thomas. Well, see if you can come to the end. That 
is what this little light means here.
    Ms. Kelly. The bill calls for the role of the Department of 
Energy to be a significant one.
    It seems to me in looking at how is this to be funded, that 
one thing the committee might consider is whether 
appropriations from the energy and water development bill might 
be an alternative to looking at resources within the National 
Park Service which have a long line of other studies waiting 
for them. And it is in the Department's interest to get this 
study funded and underway.
    So that concludes my remarks. Thank you very much.
    [The prepared statement of Ms. Kelly follows:]

          Prepared Statement of Cynthia C. Kelly, President, 
                       Atomic Heritage Foundation

    It is a pleasure to appear before the Subcommittee on National 
Parks of the Committee on Energy and Natural Resources to testify in 
support of S. 1687, ``The Manhattan Project National Historical Park 
Study Act of 2003.'' My name is Cynthia C. Kelly and I am the President 
and founder of the Atomic Heritage Foundation, a nonprofit organization 
in Washington, DC dedicated to the preservation of the history of the 
Manhattan Project and the Atomic Age.
    Let me begin by commending the Committee for its timely 
consideration of this bill. ``The Manhattan Project National Historic 
Park Study Act of 2003'' is urgently needed to ensure that some of the 
original Manhattan Project properties built to produce the world's 
first atomic bombs in World War II are considered for possible 
preservation as part of the National Park System. From laboratories and 
first-of-a-kind industrial facilities to ``Alphabet'' houses and other 
community properties, we have an opportunity to ensure that the 
American people and future generations have some tangible evidence of 
this monumental undertaking that changed the course of world history.
    One criterion for inclusion in the National Park System is that the 
resources must be ``nationally significant.'' There is no question of 
the significance of the Manhattan Project, the top-secret effort to 
make an atomic bomb in World War II. The Manhattan Project profoundly 
influenced American and world history and left an indelible legacy for 
the 21st century. With an unprecedented alliance of industry, academia 
and government, the Manhattan Project brought an end to World War II, 
established America as a global super power, and laid the foundation 
for twenty-first century science and technology.
    In a February 2001 report, the Advisory Council on Historic 
Preservation stated, ``It is imperative that our memory and recognition 
of the Manhattan Project as a watershed in the history of the nation 
and the world be preserved for future generations.'' \1\ Specifically, 
the Council recommended that the sites be considered ``as a collective 
unit administered for preservation, commemoration, and public 
interpretation in cooperation with the National Park Service.'' \2\ 
This bill gives the Secretary of Interior the opportunity, in 
consultation with the Secretary of Energy, to pursue this potential and 
examine whether and how to preserve this extraordinarily important 
chapter in American history as part of the National Park System.
---------------------------------------------------------------------------
    \1\ Advisory Council on Historic Preservation, Recommendations and 
Preservation Options for Manhattan Project Signature Afacilities at Oak 
Ridge and Hanford Reservations, Washington, DC, February 2001.
    \2\ Ibid.
---------------------------------------------------------------------------
    In August 2002, the Department of Energy awarded the Atomic 
Heritage Foundation a grant to develop a report to Congress analyzing 
how best to preserve the historic properties of the Manhattan Project. 
Last spring, the Foundation held public meetings at Oak Ridge, TN and 
Richland, WA with representatives of the Department of Energy, the 
National Park Service, other Federal agencies, State, tribal and local 
governments, historic preservation groups and other interested parties. 
From these discussions and similar ones in New Mexico, the primary 
cross-cutting recommendation that emerged was to seek a Special 
Resource Study to determine the potential inclusion of these Manhattan 
Project sites in the National Park System.\3\ Needless to say, this 
bill fulfills that recommendation and responds to a significant 
constituency of Manhattan Project communities, historians, educators, 
museum directors, and others across the country who are concerned to 
preserve significant properties from the Manhattan Project.
---------------------------------------------------------------------------
    \3\ Atomic Heritage Foundation, ``Preserving America: A Strategy 
for the Manhattan Project,'' September 4, 2003, at 
www.atomicheritage.org, page 8.
---------------------------------------------------------------------------
    Why is it urgent to authorize the Manhattan Project National 
Historical Park Study Act? The remaining Manhattan Project properties 
owned by the Department of Energy are threatened by the pace of a very 
ambitious multibillion dollar ``accelerated clean-up program'' for the 
nuclear weapons complex sites. In fact, the Department's clean-up 
schedule slates the vast majority of the remaining Manhattan Project 
properties for decommissioning and demolition over the next five years 
or so. Even the properties on the Department's short list of eight 
``Signature Facilities of the Manhattan Project'' \4\ are not exempt.
---------------------------------------------------------------------------
    \4\ U.S. Department of Energy, The Signature Facilities of the 
Manhattan Project, 2001. These properties include the Metallurgical 
Laboratory, University of Chicago, IL; X-10 Graphite Reactor, K-25 
Gaseous Diffusion Process Building, and Y-12 Beta-3 Racetracks at Oak 
Ridge, TN; B Reactor and T Plant at Hanford; V-Site Assembly Building 
and Gun Site, Los Alamos, NM; and Trinity Site, Alamogordo, NM.
---------------------------------------------------------------------------
    Because most of the Manhattan Project properties are ``behind the 
fence'' where the public has little access, few are aware of the 
potential loss of these properties. In fact, the most recent Chairman 
of the Los Alamos County Council, whose father was the chef at the 
popular ``S Site'' cafeteria during the Manhattan Project, said that 
she had never seen the properties ``behind the fence.'' Located on 
remote mesas, dozens of Manhattan Project properties were abandoned in 
place in the 1950s. The Los Alamos National Laboratory is now 
considering preserving not only the two signature properties, but also 
about a dozen other buildings that eventually could be part of a 
National Park System.
    However, senior managers have made it clear that the Department of 
Energy is ``not in the museum business'' and some other agency must 
serve as the long-term steward for its Manhattan Project resources. For 
example, the Manager for the Hanford Site has challenged the community 
to find an alternative organization to manage the ``B Reactor,'' the 
first plutonium production reactor at Hanford, by September 2005. If 
not, the Department intends to ``cocoon'' it or strip the reactor down 
to its shielding wall and wrap it in cladding, at a cost of $15 million 
or more. This study will provide an opportunity to meet the 
Department's demands to explore alternative management solutions for 
the B Reactor, one of its designated ``Signature Facilities,'' and 
other important Manhattan Project resources.
    As the legislation recognizes, the Department of Energy will play 
an important role in the study by clarifying the integrity of its 
Manhattan Project properties as well as environmental contamination, 
national security and other issues. The Secretary of Interior will 
consult with the Secretary of Energy as the study weighs alternative 
management, ownership, liability, public access and other provisions. 
Such provisions will need to be revisited periodically as clean-up 
progresses, security perimeters are redrawn to allow greater public 
access, and other developments. As the Advisory Council on Historic 
Preservation has counseled, it is important to take a long-term 
approach to the preservation of historic resources. Any examination of 
potential Manhattan Project sites will have to look at a variety of 
management options including changing roles by the Department of Energy 
and other organizations over time.
    The Department of Energy has an important mission to clean-up the 
former nuclear weapons complex. To accommodate the clean-up schedules 
as much as possible, we agree that the study should be done as 
expeditiously as possible. The bill provides a deadline of one year 
from the time that funds are made available. Given the number of other 
studies competing for the National Park Services resources, we 
recommend that $850,000 be included as part of the Energy and Water 
Development Appropriations bill for FY 2006. This would help ensure 
that the study can be conducted on a schedule that reasonably meshes 
with the Department of Energy's clean-up schedule.
    The legislation authorizing a Special Resource Study for the 
Manhattan Project sites will ensure that some of the most significant 
properties of America's heritage are evaluated for possible inclusion 
in the National Park System. Seeing first-hand the humble asbestos-
shingled building at Los Alamos where the ``Trinity device'' was 
assembled or the monumental chemical separation plants nicknamed 
``Queen Marys'' at Hanford are unforgettable experiences. The 
legislation is an important step towards preserving these and other 
tangible remains of an effort that continues to shape the course of 
history.

    Senator Thomas. Thank you very much.
    Reverend Lynn.

STATEMENT OF REV. BARRY W. LYNN, EXECUTIVE DIRECTOR, AMERICANS 
           UNITED FOR SEPARATION OF CHURCH AND STATE

    Rev. Lynn. Thank you, Mr. Chairman. I am the executive 
director of Americans United for Separation of Church and 
State.
    The history of religion in America is a story of voluntary 
giving. It is not a chronicle of government subsidy. In no 
small measure, the vitality and diversity of religious 
discourse in this country should be credited to the rigorously 
hands-off approach government has historically taken toward 
religion. Governments do not choose favorite faiths for 
assistance. They do not bail our religious groups like some 
ailing corporation. In America, religions literally make it or 
break it by themselves.
    This session Congress is being asked to make a change in 
course, to spend $10 million to maintain, repair, and preserve 
the structure and contents of 21 missions in California. 
Although there is no doubt that these buildings and artifacts 
have a rich historical significance, which we have heard a 
great deal about today already, but 19 of the missions are 
owned by the Catholic Church and operate as active parishes 
with regularly scheduled religious services. These buildings 
are the principal places of worship for thousands of 
churchgoers. Indeed, the mission, Basilica San Diego, is 
California's oldest Roman Catholic Church and currently has 
2,500 members in its parish.
    Now, admittedly this bill, S. 1306, contains language that 
the Secretary of the Interior is to ``ensure that the purpose 
of a grant is secular, does not promote religion, and seeks to 
protect those qualities that are historically significant.'' 
Frankly, though, it is impossible to segregate the historical 
from the spiritual and expect that government funds will only 
go to the former. Can a person in a pew observing a government-
funded restored painting of the Virgin Mary be expected to 
ignore the religious impulse it was meant to convey and just 
think of it as some historically significant cultural 
manifestation? I do not think so.
    Any funds that end up maintaining or restoring religious 
icons associated with devotion and worship will be viewed as an 
endorsement of religion at taxpayer expense. Any funds that 
restore a site of central religious observance will be 
similarly seen as the promotion of religion at a cost to the 
taxpayers. And all of this is true even if the earmarked funds 
are passed through a California foundation.
    Early American history is replete with examples of how 
clear the Framers of our Constitution were about the immorality 
of compelling citizens to pay taxes for the advancement of 
religion. James Madison argued that if a person could be 
compelled to contribute even 3 pence to support a religion, 
government could enforce him to conform to any other 
establishment of faith. And the President put that principle 
into practice by vetoing a bill to give a Baptist church in 
Mississippi even a small parcel of government land. Madison was 
not hostile to religion, but he was faithful to his original 
understanding that religious groups had to rely on voluntary 
giving, not tax funding coerced by the State.
    Indeed, this was the reasoning followed by the Supreme 
Court in a series of important cases. In 1971, the Court 
unanimously held that when construction grants went to 
religious institutions of higher learning, it was 
constitutionally required that those institutions could not use 
any funds for a building in which worship or other sectarian 
activities would ever occur.
    Similarly the Court held in the context of private 
secondary schools, that if the State may not erect buildings in 
which religious activities are to take place, it may not 
maintain such buildings or renovate them when they fall into 
disrepair. That seminal line of cases is unaffected by any 
subsequent church-State decisions, which is why from 1981 to 
2002 a consistent policy in both Republican and Democratic 
administrations forbade the use of Federal funds to build, 
repair, or maintain facilities used for religious services.
    Supporters of these mission grants would be skating on 
constitutional thin ice to believe that this longstanding 
principle has been altered, much less nullified. And indeed, 
notwithstanding one Department of Justice memo to the contrary, 
even this administration's own final regulations for the 
Department of Housing and Urban Development state unequivocally 
that Federal funds ''may not be used for the acquisition, 
construction, or rehabilitation of sanctuaries, chapels, or any 
other rooms that a religious congregation uses as its principal 
place of worship.`` The California missions are quintessential 
examples of such structures with active worshiping 
congregations.
    Preservation of historic buildings is important, but the 
preservation of the constitutional right to religious liberty 
is vital. These missions are houses of worship. They are not 
simply museums. Funds to fix the ceilings and the windows, to 
revitalize the religious icons on the walls must come from 
congregants or from the millions of yearly visitors and from 
America's charitable foundations. I believe that the people of 
California and tourists from around the United States can 
preserve these mission buildings without having to pass the 
collection plate to Uncle Sam at the same time.
    Thank you.
    [The prepared statement of Reverend Lynn follows:]

   Prepared Statement of Reverend Barry W. Lynn, Executive Director 
    Americans United for Separation of Church and State, on S. 1306

    Mr. Chairman, Ranking Member Akaka, and Members of the 
Subcommittee, thank you for this opportunity to present testimony on 
behalf of Americans United for Separation of Church and State on S. 
1306, the ``California Missions Preservation Act.'' Americans United is 
a religious liberty watchdog group based in Washington, D.C., with over 
70,000 members. Founded in 1947, the organization educates Americans 
about the importance of church-state separation in safeguarding genuine 
religious freedom. I am both an ordained minister in the United Church 
of Christ and a member of the District of Columbia and U.S. Supreme 
Court bars.
    I appreciate the opportunity to address you today on the serious 
constitutional ramifications of the California Missions Preservation 
Act, particularly because our organization is extremely active in 
California. Americans United has over 8,000 members in California, as 
well as five major local chapters in San Francisco, the Bay Area, Los 
Angeles, San Diego, and the San Fernando Valley. Frankly, though, all 
Americans who wish to advance religious liberty should be seriously 
concerned about the California Missions Preservation Act because it 
would have dramatic church-state implications.
    There is no doubt that California's 21 missions, which run along a 
600-mile stretch of highway from San Diego to Sonoma are historically 
significant and contribute greatly to the rich historical, cultural and 
architectural heritage of California and the American West. Although we 
recognize that preservation of these historic buildings is important, 
we strongly believe that the preservation of America's constitutional 
rights is vital. In short, the California Missions Preservation Act 
would violate the First Amendment by forcing taxpayers nationwide to 
pay for church repairs, even repairs and restoration of facilities with 
active congregations. I urge you today, for the sake of preserving 
religious liberty, to ensure that federal funds are not used to build 
or repair houses of worship. Instead, it is up to religious 
organizations and individuals to voluntarily support preservation of 
the California missions.

                               BACKGROUND

    The 21 missions comprising California's historic mission trail were 
founded between 1769 and 1823. Largely reconstructed after the tests of 
time, weather, and earthquakes, 19 of the 21 missions are owned by the 
Roman Catholic Church, operate as active parishes, and have regularly 
scheduled religious services.
    Under S. 1306, federal funds would be provided to pay for ``efforts 
to restore and repair the California missions, and to preserve 
associated artworks and artifacts.'' The bill would authorize the 
Secretary of the Interior, under section 101(e)(4) of the National 
Historic Preservation Act, 16 U.S.C. Sec. 470a(e)(4), to grant 
$10,000,000 in federal funds over a five-year period to support the 
California Missions Foundation, a charitable corporation dedicated to 
funding the restoration and repair of the California missions and the 
preservation of the Spanish colonial and mission-era artworks and 
artifacts of the California missions. It also would require the 
California Missions Foundation to match federal grant funds and to 
provide annual reports to the Secretary regarding the preservation 
efforts taken with funds provided under the bill.
    Americans United recognizes that the bill includes some language 
purportedly protective of religious liberty. Specifically, the bill 
states that the Secretary of the Interior ``shall ensure that the 
purpose of a grant under this section is secular, does not promote 
religion, and seeks to protect those qualities that are historically 
significant.'' Similarly, the National Historic Preservation Act, to 
which the bill refers, provides that ``[g]rants may be made . . . for 
the preservation, stabilization, restoration or rehabilitation of 
religious properties . . . provided that the purpose of the grant is 
secular, does not promote religion, and seeks to protect those 
qualities that are historically significant.'' 16 U.S.C. 
Sec. 470a(e)(4).
    These protections are steps in the right direction, but they are 
insufficient as a practical matter to meet the requirements of the 
Constitution. Time after time, the Supreme Court has required that no 
government funds be used to maintain, restore, or make capital 
improvements to physical structures that are used as houses of worship, 
even if religious services are infrequent. Because most, if not all, of 
the missions remain active houses of worship, in addition to serving as 
cultural and historic institutions, it is impossible for the government 
to fund the California missions without violating the Constitution.
    The illegality of the proposal to fund the California missions is 
exacerbated when one considers the issue of government directly funding 
religious icons. Because one of the objectives of the California 
Missions Foundation is to preserve the ``Spanish colonial and mission-
era artworks and artifacts of the California missions,'' and because 
the bill specifically authorizes federal funds to be used to ``preserve 
the artworks and artifacts associated with the California missions,'' 
the Secretary would be empowered to provide government money 
specifically to maintain or restore religious artifacts and icons 
associated with devotional and worship activities at the missions, a 
result that would be clearly unconstitutional.

      PROVIDING FEDERAL FUNDS TO THE CALIFORNIA MISSIONS WOULD BE 
                            UNCONSTITUTIONAL

    Three Supreme Court decisions make clear that it is 
unconstitutional to allow federal grants for the repair of preservation 
of structures devoted to worship or religious instruction, and all 
three of these decisions remain binding law on the federal government. 
In Tilton v. Richardson, 403 U.S. 672 (1971), the Court laid the 
framework for the current constitutional requirements regarding 
construction, upkeep, and maintenance of religious institutions'' 
physical facilities. Tilton involved a challenge to the 
constitutionality of a federal law under which federal funds were used 
by secular and religious institutions of higher education for the 
construction of libraries and other campus buildings. Although the law 
allowed money to go to religious institutions, it also contained a 
proviso that expressly forbade funds from being spent on buildings that 
would be used for worship or sectarian instruction. The Court upheld 
the program, but it unanimously held that the proviso was 
constitutionally necessary and unanimously invalidated part of the 
statute that would have allowed religious schools to convert the 
federally-funded facilities for worship or sectarian instruction after 
twenty years had passed. No building that was built with federal funds 
can ever be used for worship or sectarian instruction--that is Tilton's 
clear holding. 403 U.S. at 692.
    In two subsequent cases decided two years later, the Supreme Court 
clearly reaffirmed the principle that the First Amendment prohibits the 
government from subsidizing the construction or repair of buildings 
used as houses of worship. In Hunt v. McNair, 413 U.S. 734 (1973), the 
Supreme Court upheld the South Carolina Educational Facilities 
Authority Act, which established an ``Educational Facilities 
Authority,'' through which educational facilities could borrow money 
for use in their facilities at favorable interest rates. However, the 
Act required each lease agreement to contain a clauses forbidding 
religious use in such facilities and allowing inspections to enforce 
that requirement. 413 U.S. at 744. The Court upheld the Act, including 
the condition that government-funded physical structures could never be 
used for religious worship or instruction.
    Finally, in Committee for Public Education v. Nyquist, 413 U.S. 756 
(1973), the Supreme Court struck down New York's program of providing 
grants to nonpublic schools for use of maintenance and repair of 
``school facilities and equipment to ensure health, welfare, and safety 
of enrolled students.'' 413 U.S. at 762. The Court summarized its 
previous holdings as ``simply recogniz[ing] that sectarian schools 
perform secular, educational functions as well as religious functions, 
and that some forms of aid may be channeled to the secular without 
providing direct aid to the sectarian. But the channel is a narrow 
one.'' Id. at 775. The Court then held that ``[i]f the State may not 
erect buildings in which religious activities are to take place, it may 
not maintain such buildings or renovate them when they fall into 
disrepair.'' Id. at 777. In other words, government funding for either 
the construction or maintenance and repair of physical structures is 
unconstitutional unless there is no possibility that the structures 
will be used for sectarian worship or instruction. Otherwise the 
government would be subsidizing religious activity.
    All three of these cases firmly establish that it is 
constitutionally impermissible for the government to provide aid for 
the construction, repair, or maintenance of any buildings that are, or 
might be, used for religious purposes. The rule set down by the Supreme 
Court in these three cases--which requires that publicly financed 
buildings be used only for purely secular purposes--remains controlling 
law and has never been undermined or seriously questioned in any 
subsequent Supreme Court decision regarding direct governmental aid to 
religious institutions. Thus, under Tilton, McNair, and Nyquist, it 
would be unconstitutional for the federal government to provide funds 
to any of the California missions in which religious services take 
place. These decisions are in keeping with a lengthy and valuable 
tradition in America: the idea that maintenance of houses of worship 
belongs to congregants, not to taxpayers. The idea of compelled support 
for religion was repellent to our Founding Fathers. Time and again one 
sees in their writings and public pronouncements a concern that support 
for religion come through voluntary channels.
    Founders like Thomas Jefferson and James Madison did not hold this 
view because they were hostile to religion. Rather, they believed that 
it was morally wrong to force anyone to support religious worship, 
religious education, or houses of worship against his or her will. As 
Madison observed in his famous ``Memorial and Remonstrance Against 
Religious Assessments,'' ``The same authority which can force a citizen 
to contribute three pence only of his property for the support of any 
one [religious] establishment may force him to conform to any other 
establishment in all cases whatsoever.''
    Madison, widely considered the Father of the Constitution, believed 
the federal government should stay out of the business of funding 
religion. As president, he vetoed a bill giving a Baptist church a 
small amount of federal land in Mississippi, asserting in his veto 
message to Congress that the measure ``comprises a principle and 
precedent for the appropriation of funds of the United States for the 
use and support of religious societies, contrary to the article of the 
Constitution which declares that `Congress shall make no law respecting 
a religious establishment.' ''
    Denying taxpayer aid for the rebuilding, refurbishing and 
maintenance of the California missions is neither a radical step nor is 
it an example of animus toward religion. Instead, it is wholly in line 
with our nation's past practices and our wise tradition of requiring 
religious groups to rely on voluntary support given by willing donors, 
not tax funds coerced by the state.
    Indeed, from 1981 until 2002, through both Republican and 
Democratic administrations, it was the consistent policy of the federal 
government to forbid the use of federal grants for the construction, 
repair, or maintenance of any facility used for religious services. 
This policy was committed in writing in an October 31, 1995, legal 
memorandum issued by the U.S. Department of Justice's Office of Legal 
Counsel (OLC), in which that office concluded that a reviewing court, 
applying binding precedent, would ``likely hold that making historic 
preservation grants to churches and other pervasively sectarian 
properties is inconsistent with the Establishment Clause.''
    However, on April 30, 2003, OLC issued an opinion reversing its 
1995 memorandum. The new OLC opinion concluded that the ``Establishment 
Clause does not bar the award of historic preservation grants to . . . 
active houses of worship that qualify for such assistance, and that the 
section of the National Historic Preservation Act that authorizes the 
provision of historic preservation assistance to religious properties 
is constitutional.'' As has been widely reported in the media, it is 
under this opinion that the Secretary of the Interior proceeded amidst 
considerable controversy to award historic preservation funds to the 
Old North Church in Boston and the Touro Synagogue in Newport, Rhode 
Island--efforts strongly criticized as unconstitutional by Americans 
United and other organizations committed to safeguarding religious 
liberty.
    The new OLC memorandum, issued with no deference to prior, 
longstanding federal policy, is highly controversial and reflects 
nothing more than a highly politicized judgment from the Department of 
Justice. It essentially reflects wishful thinking on the part of the 
Department of Justice that the Supreme Court will, sometime in the 
future, overturn the above-cited cases. As Professors Ira C. Lupu and 
Robert Tuttle of George Washington University Law School stated in a 
recent article analyzing the Administration's proposals on the faith-
based initiative, ``The Bush Administration's recent announcements . . 
. venture into constitutionally questionable territory.'' The 2003 OLC 
opinion directly conflicts with the holdings of Tilton and Nyquist. I 
urge the Subcommittee to review and apply these Supreme Court cases to 
the issue of supplying governmental aid to the 19 California missions 
in which religious services currently take place.

     THE BILL AND THE NEW OLC MEMORANDUM ARE INCONSISTENT WITH THE 
ADMINISTRATION'S OWN RECENT POSITION ON FUNDING OF HOUSING PROGRAMS RUN 
                          BY RELIGIOUS GROUPS

    In determining whether to provide federal funds to the California 
missions, the Subcommittee should follow the Administration's own 
position stated in recent regulations finalized by the Department of 
Housing and Urban Development (HUD), as part of the Bush 
Administration's faith-based initiative. The HUD regulations on 
religious organizations participating in federal housing programs 
provide, ``HUD funds may not be used for acquisition, construction, or 
rehabilitation of sanctuaries, chapels, or any other rooms that a 
religious congregation that is a recipient or subrecipient of HUD 
assistance uses as its principal place of worship.'' 68 Fed. Reg. 56397 
(emphasis added).
    As an example of the intended application of the final rule, HUD 
stated:

        A one-room church applies for CDBG funds to make several 
        necessary repairs. On Sunday morning, the church serves as a 
        place for congregational worship. During weekdays, the church 
        is used to operate a ``soup kitchen'' for homeless individuals. 
        Accordingly, except for the few hours on Sunday morning when 
        the church holds worship services, the one-room church is used 
        for the purpose of providing meals to homeless individuals--a 
        purpose that is eligible for HUD assistance. The one-room 
        church is ineligible for CDBG-funded improvements because it is 
        the congregation's principal place of worship.
        Id. (emphasis added).

    These rules prohibiting funds for construction, maintenance, or 
repair of a principal place of worship were finalized on September 30, 
2003. This represents the Administration's most recent determination of 
the constitutionality of federal funding of the bricks and mortar of 
houses of worship.\1\ The Subcommittee should apply the same principle 
here and deny federal funding to the California missions because they 
are undoubtedly principal places of worship for their congregations.\2\
---------------------------------------------------------------------------
    \1\ Indeed, as recently as March 3, 2004, HUD issued new proposed 
regulations applicable to ``HUD programs and activities,'' 69 Fed. Reg. 
10126, in which HUD has, once again, proposed that ``Sanctuaries, 
chapels, and other rooms that a HUD-funded religious congregation uses 
as its principal place of worship . . . are ineligible for HUD-funded 
improvements.'' Id. at 10127. Americans United will submit comments on 
these proposed regulations.
    \2\ Americans United took the position before HUD that the 
constitutional prohibition against federal assistance for the bricks 
and mortar of religious organizations is more sweeping than the final 
HUD regulations provide. See attachment. But even the final HUD 
regulations would prevent federal funding of any of the California 
missions in which religious services are conducted. Note.--Attachments 
have been retained in subcommittee files.
---------------------------------------------------------------------------
                               CONCLUSION

    To conclude, Americans United is fully aware of the historical and 
cultural significance of the California missions. However, it is 
essential for Congress to maintain our nation's commitment to 
safeguarding religious liberty for all Americans. Nineteen of the 21 
California missions are churches, not just museums, and are still used 
for religious services. The repair and upkeep of the missions, 
therefore, must be paid for by those who worship there or by other 
interested individuals or private organizations through voluntary 
contributions. Under the mandates of our Constitution, the Subcommittee 
should deny funding to the California missions.
    Once again, I thank you, Mr. Chairman, for the opportunity to 
address the Subcommittee on this important religious liberty issue, and 
I look forward to answering any questions you or your colleagues may 
have.

    Senator Thomas. Thank you, sir.
    Mr. Stephen Hearst.

STATEMENT OF STEPHEN T. HEARST, FOUNDING CHAIRMAN OF THE BOARD, 
       CALIFORNIA MISSIONS FOUNDATION, SAN FRANCISCO, CA

    Mr. Hearst. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for the opportunity to testify today in 
support of legislation to restore, repair, and preserve 
California's 21 historic missions.
    The good news is that going third, I have been able to edit 
my comments down. The bad news is they started out at 6 
minutes. So I will try to get through them.
    I am the founding chairman of the board of the California 
Missions Foundation and my family has a fairly rich legacy in 
contributing toward the restoration of the California missions. 
Over the years, the Hearst Foundation has contributed toward 
the mission preservation projects as well.
    The foundation was created in 1998 to inform the public of 
the historical importance of the California missions, focusing 
attention on their preservation and ensuring the rich legacy of 
the mission history is preserved for future generations.
    I want to thank Senator Boxer, Senator Feinstein, and 
others like Congressman Farr who have helped and supported this 
urgent piece of legislation, the California Missions 
Preservation Act. They recognize the need to attend to the 
deterioration of our Nation's historic icons and also the 
necessity to bring the Federal Government into partnership with 
State and private efforts for the purpose of restoring these 
meaningful California symbols. Thank you, Mr. Chairman, for 
making the hearing possible.
    All of the missions have helped shape California history, 
the locations of cities, transportation routes, as well the 
cultural fabric.
    This foundation was formed in 1998. It is an organized 
corporation operated exclusively under section 501(c)(3) of the 
U.S. Internal Revenue Code for charitable purposes. The 
foundation is comprised of a volunteer board of directors, 
which establishes the governing policies that outline the 
foundation's purposes and objectives, having general charge of 
the business affairs and activities for the foundation.
    It was said earlier that this is a major component in the 
curriculum in fourth grade classrooms. 750,000 California 
children every year experience the missions through their 
studies and site visits. In 2000, the Missions Foundation 
designed an educational guide called the Missions of Alta, 
California that is available statewide as a companion research 
tool for fourth graders in their annual mission projects.
    Many of these missions are experiencing structural 
problems. The projects include seismic retrofitting which is 
the largest component of financial need. The restoration and 
preservation of mission artifacts are crucial not only in 
restoring their beauty and their antiquity, but also in 
bringing them up to modern-day safety standards.
    $39 million was our estimate on the structural repairs and 
seismic work that needed to be done. That was prior to the 
December 22 earthquake in San Simeon that closed San Miguel. 
$5.8 million is needed for the conservation of all Spanish 
colonial and mission era arts, paintings, statuary, sculptures, 
and manuscripts.
    $5.2 million is required for overdue visitor-related 
improvements like ADA rest rooms.
    19 of the 21 missions are not funded by any government 
agency. Through the help of individuals, foundations, 
corporations, the foundation has raised $3 million and has a 
long way to go to meet the original estimate of $50 million.
    Our request for assistance is to help us preserve these 
living landmarks. I am here today to ask for the financial 
assistance to help us save the California treasures so integral 
to our fabric and landscape.
    As the Mission Foundation, we will also continue to pursue 
both State and private sources of financial aid as well.
    The Federal support is crucial to our foundation's charge 
to preserve, protect, and maintain our California treasures for 
generations.
    This funding would provide a strong impetus for our ongoing 
efforts and by authorizing a grants program under the Secretary 
of the Interior. Remember, these are matching funds. It is not 
just a gift.
    The legislation also includes structured accountability 
requirements for the foundation with regard to reporting on the 
following: the missions' current conditions, the program of 
needed repairs, and then an annual report on all the followup.
    In conclusion, Mr. Chairman, members of the subcommittee, I 
conclude by reiterating that this is a crucial need to uphold 
the historical value of these great monuments to our Western 
culture by investing in their future. It would be a great loss 
to our society and to our national legacy if we failed to save 
this historic treasures.
    With regard to the separation of church and State, the 
buildings, art, and artifacts, while they may be religious in 
their history and theme, are very much worthy from a historical 
and artistic standpoint of restoration and care. I might add 
that probably in the neighborhood of the 10 or 20 percent of 
the function of the missions is focused on the religious aspect 
and the balance of it is tourism and visitations from local 
communities and so forth. The church aspect of the missions, 
while it is getting all the focus, seems to be the smallest 
component of what they do in serving all of their communities.
    That is my testimony, sir.
    [The prepared statement of Mr. Hearst follows:]

    Prepared Statement of Stephen T. Hearst, Chairman of the Board, 
                     California Missions Foundation

    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity today to testify in support of H.R. 1446 and S. 1306, 
legislation to restore, repair and preserve California's 21 historic 
missions.
    My name is Stephen Hearst. I am the founding Chairman of the Board 
of the California Missions Foundation. William Randolph Hearst, my 
great-grandfather and his mother, Phoebe Apperson, personally 
contributed to the restoration of the missions. Over the years, the 
Hearst Foundation has significantly funded mission preservation 
projects. The California Missions Foundation was created in 1998 to 
inform the public of the historical importance of the California 
Missions, focusing attention on their preservation and insuring that 
the rich legacy of mission history is preserved for future generations. 
The Foundation is charged specifically with managing the restoration 
and preservation of the missions.
    I want to thank Senator Boxer, Senator Feinstein and all those who 
supported this urgent legislation introducing H.R. 1446 and S. 1306. 
They recognized the need to attend to the deterioration of our nation's 
historic icons and also the necessity to bring the federal government 
into the partnership of state and private efforts for the purpose of 
restoring these meaningful, California symbols. Thank you Mr. Chairman, 
for making this hearing possible today.
Missions' History:

  <bullet> The California missions represent an historic vein running 
        through our state, symbolizing exploration that expanded our 
        nation to its four corners
  <bullet> July 16, 1769--First mission, San Diego de Alcala was 
        established in San Diego
  <bullet> July 4, 1823--Last mission, San Francisco Solano was 
        established in Sonoma
  <bullet> All of the missions have helped shape California's history, 
        transportation routes as well as its cultural fabric
  <bullet> All 21 missions have been designated as California 
        historical landmarks
  <bullet> 7 missions have national historical landmark status

Foundation's History:

  <bullet> Founded in 1998, the California Missions Foundation is an 
        organized corporation operated exclusively under Section 501 
        (c)(3) of the US Internal Revenue Code for charitable purposes
  <bullet> The Foundation is comprised of a volunteer Board of 
        Directors which establishes the governing policies that outline 
        the Foundation's purposes and objectives, having general charge 
        of business affairs and activities of the Foundation
  <bullet> Primary funding entities: Our top donors range from $1 mil.-
        $25k

State-wide Significance:

  <bullet> Nearly 5.3 million people visit the missions each year, 
        making them the most popular, historic, tourist attractions in 
        California
  <bullet> The financial contributions these 5 million+ visitors bring 
        to California translate into great sources of state-wide 
        revenue (hotels, restaurants, car rentals, the visitation of 
        other local attractions, etc.)

Educational Significance:

  <bullet> The missions also serve as an integral component of our 
        statewide curriculum for 4th grade students every year, nearly 
        750,000 school children experience the missions through their 
        studies and site visits
  <bullet> In 2000, The Missions Foundation designed an educational 
        guide, ``The Missions of Alta California'' that is available 
        statewide as a companion research tool for 4th graders'' annual 
        school ``Mission's Project

Mission Needs:

  <bullet> For 230 years, the missions have stood as symbols of Western 
        exploration and settlement. Time, natural deterioration and 
        under-funded maintenance have taken a heavy toll on the 
        missions
  <bullet> Many of the missions are experiencing structural problems 
        and other deteriorating conditions. Projects including seismic 
        retrofitting, and the restoration and preservation of mission 
        artifacts are crucial not only in restoring their antique 
        beauty, but also in bringing then up to modern safety standards
  <bullet> $39 million is needed to fund structural repairs, seismic 
        work and deferred maintenance at all (21) missions
  <bullet> $5.8 million is needed for conservation of all Spanish 
        colonial and mission-era paintings, statuary, sculptures, 
        furniture, manuscripts, textiles and other irreplaceable 
        mission artifacts
  <bullet> $5.2 million is required for overdue visitor-related 
        improvements including ADA restrooms, upgrades of historical 
        displays and expanded educational programs for schools and the 
        visiting public

Mission San Miguel:

  <bullet> The mission was already deteriorating due to age and decay. 
        Deep cracks run from the rooflines to the doorways some large 
        enough to fit your hand in. Walls in the sacristy are pulling 
        apart; 200 year old frescoes are fading and chipping off.
  <bullet> The 6.2 December 22nd San Simeon earthquake a few weeks ago 
        caused further damage to the mission resulting in its closure 
        to the public. Restoration work and repairs could now cost up 
        to $15 million.

Missions Funding:

  <bullet> 19 of the 21 missions are not funded by any governmental 
        agency
  <bullet> Through the help of individuals, foundations and 
        corporations, the California Missions Foundation has raised $3 
        million and has a long way to go to meet the missions' needs

Request for Assistance:

  <bullet> The missions stand as living landmarks of more than two 
        centuries, recognized for their contributions to California's 
        rich history and development especially in the area of art, 
        architecture, agriculture, food, music, language, apparel and 
        recreation
  <bullet> I am here today to ask for financial assistance to help us 
        save these California treasures so integral to our cultural 
        fabric and landscape
  <bullet> As the Missions Foundation, we will also continue to pursue 
        State and private sources of financial support as well
  <bullet> This Federal support is crucial to our Foundation's charge 
        to preserve, protect and maintain all of the California 
        missions for future generations

H.R. 1446/S. 1306:

  <bullet> Would provide a strong impetus to our ongoing efforts by 
        authorizing a grants program under the Secretary of the 
        Interior
  <bullet> Match federal funding
  <bullet> The legislation also includes structured accountability 
        requirements for the Foundation with regards to reporting on 
        the following:

    <bullet> Missions' current conditions
    <bullet> Providing a program for repairs
    <bullet> Annual progress updates on the preservation work

Conclusion:
    Mr. Chairman, Members of the Subcommittee, I conclude by 
reiterating that there is a crucial need to uphold the historical value 
of these great monuments to our Western culture by investing in their 
continuity. It would be of great loss to our society and to our 
national legacy if we failed to save these historic treasures.
    With regard to concerns of maintaining a separation of church and 
state:

  <bullet> The buildings, art and artifacts while they may be religious 
        in their history and theme, are very much worthy, from an 
        historical and artistic standpoint of restoration and care.

    Thank you, Mr. Chairman and Members of the Subcommittee for your 
time today and for your interest in reviewing H.R. 1446 and S. 1306 for 
the purpose of preserving the history and heritage of our California 
Missions, keeping the doors open for generations to come. Your support 
is greatly appreciated.
    Please feel free to explore our website 
www.missionsofcalifornia.org. There you'll find information about our 
preservation and educational outreach endeavors.

    Senator Thomas. Thank you. You did well in your timing. 
Thank you.
    Mr. Hearst. Thank you.
    Senator Thomas. Mr. Costlow, your address on here--you are 
in Florida. Is that right?
    Mr. Costlow. Yes. I have a house up in Pennsylvania and I 
had to move down to Florida a couple years ago, but I have been 
staying very active with the historical society. In fact, I am 
officially in the State of Pennsylvania still the president and 
chairman of the society.
    If the bill is approved, one of the things I am going to 
have to do is to redo our articles of incorporation with the 
State of Pennsylvania to change our role. So everything that we 
need to do we are doing. I do not see any surprises.
    The supporting documents I gave may seem strange to people, 
but every one of those pages played an important role in 
getting to where we are.
    Senator Thomas. I am just going to ask a couple of quick 
questions, if you can give me a quick answer.
    Has your club tried to get a private investor to do this?
    Mr. Costlow. Yes, we have.
    Senator Thomas. And why did they not?
    Mr. Costlow. In fact, I have the complete document. We had 
to----
    Senator Thomas. Just tell me why they did not----
    Mr. Costlow. The Mellon Foundation donated $17,500. We did 
a complete professional screening of the entire Nation. I have 
a complete folder right here on it. And we did not get any 
hits. The progress fund which was set up initially by the 
Department of the Interior was responsible for the nationwide 
part of it.
    One of the problems we run into in this program is that the 
historic nature of the funding was previously provided by the 
Federal Government. That historic thing turns people off. We 
have a difficult time trying to get anybody to do it.
    Senator Thomas. Thank you.
    Ms. Kelly, the bill directs the Secretary of the Interior 
to conduct a study of the sites. I understand that has been 
going on for some time. Do you know how much left there is to 
the study?
    Ms. Kelly. What the special resource study would do is look 
at the management--well, the national significance, and I think 
that has been well documented. The suitability and the 
feasibility are questions that the National Park Service raised 
as to public access, the degree of contamination of the 
properties and its function as a museum where the public would 
be going in and out.
    Senator Thomas. How long do you think this will take?
    Ms. Kelly. Well, I am thinking if we can have a 
concentrated effort--I am anxious to get the study done in the 
shortest possible time. It could be a year, would be probably 
the fastest anyone could do it, but that would be consistent 
with the kind of schedule we are----
    Senator Thomas. How many potential sites are there?
    Ms. Kelly. Well, I think the legislation wants to focus on 
the three major sites. There are others. Trinity Site is one 
which has been discussed but it has been deliberately not 
included in this as a principal target of a special resource 
study.
    Senator Thomas. Reverend Lynn, are you aware of any 
instances where Federal funds are used in the maintenance of 
historic buildings of this type that are used by religious 
organizations?
    Rev. Lynn. There are very few instances where any grants 
have gone to active congregations. There is an ongoing 
controversy regarding Old North Church in Massachusetts which 
was the recipient of a fairly modest grant earlier this year.
    In general and up till 1992, no one in any kind of 
administration honestly believed you could give money to 
organizations that had an active congregation because 
notwithstanding what Mr. Hearst recently said, the truth is 
these were established for religious purposes. They are still 
active congregations. They are still on a weekly basis every 
weekend and through the week an active, ongoing religious 
institution. And I think there is no suggestion in any of the 
Supreme Court decisions since the 1970's to suggest that direct 
funding for the construction of religious buildings is 
constitutionally acceptable.
    Senator Thomas. So you do not think you could reasonably 
separate religious activity from the maintenance of a historic 
structure.
    Rev. Lynn. I do not believe that that is literally 
possible, and I think in the real world in which that would be 
done, it would have to be done with such extraordinary scrutiny 
by some government official as to entangle the church and the 
state in ways that would violate other of the standard tests 
for determining unconstitutionality of funding.
    Senator Thomas. Mr. Hearst, who owns these buildings?
    Mr. Hearst. The Archdiocese owns 19 of them and 2 are in 
the hands of State Park and Rec.
    Senator Thomas. Do you ever charge admission for this, you 
know, like a demonstration fee project or anything?
    Mr. Hearst. Well, the individual missions charge admission 
for different components of their tours of the yards and 
gardens. Also many of them have gift shops. But it is literally 
nickels and dimes when you are talking about trying to support 
these structures, which again are very much out-of-date and 
being weathered by a couple of centuries.
    There are instances where FEMA money has gone to missions. 
Both San Gabriel and San Fernando received $1.3 million and $1 
million, respectively, after earthquake damage. It has been 
done and it can be done. It is an issue that is going to 
continue to be debated forever I imagine.
    Senator Thomas. Yes, I suppose.
    Mr. Hearst. But it is our personal goal and our mission to 
make sure that we keep these structures functional for not only 
their communities but also for the fourth graders and for 5.3 
million visitors every year.
    Senator Thomas. I understand.
    Well, let me thank you all for taking time to be here. I 
know that from time to time there is disagreement. That is 
legitimate. But we are glad that you are here.
    I think we will try and keep the record open for a couple 
days so if there are other members who would like to ask you 
written questions, why, they will be able to do that.
    Otherwise, thank you so very much. The committee is 
adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    Americans United for Separation of Church and State would like to 
take this opportunity to respond to Senator Domenici's questions 
regarding S. 1306/H.R. 1446, the ``California Missions Preservation 
Act.''

              Responses to Questions From Senator Domenici

    Question 1. Are you aware of any other instances where federal 
funds are being used for maintenance of houses of worship?
    Answer. It has been the policy of the federal government for 
decades to forbid the use of federal grants for the construction, 
repair, or maintenance of any facility used for religious services. 
This policy was committed in writing in an October 31, 1995, legal 
memorandum issued by the U.S. Department of Justice's Office of Legal 
Counsel (OLC), in which that office concluded that a reviewing court, 
applying binding precedent, would ``likely hold that making historic 
preservation grants to churches and other pervasively sectarian 
properties is inconsistent with the Establishment Clause.''
    However, on April 30, 2003, OLC issued an opinion reversing its 
1995 memorandum. The new OLC opinion concluded that the ``Establishment 
Clause does not bar the award of historic preservation grants to . . . 
active houses of worship that qualify for such assistance, and that the 
section of the National Historic Preservation Act that authorizes the 
provision of historic preservation assistance to religious properties 
is constitutional.'' As has been widely reported in the media, it is 
under this opinion that the Secretary of the Interior proceeded amidst 
considerable controversy to award historic preservation funds to the 
Old North Church in Boston and the Touro Synagogue in Newport, Rhode 
Island--efforts strongly criticized as unconstitutional by Americans 
United and other organizations committed to safeguarding religious 
liberty.
    The new OLC memorandum, issued with no deference to prior, 
longstanding federal policy, is highly controversial and reflects 
nothing more than a highly politicized judgment from the Department of 
Justice. It essentially reflects wishful thinking on the part of the 
Department of Justice that the Supreme Court will, sometime in the 
future, overturn Supreme Court cases. As Professors Ira C. Lupu and 
Robert Tuttle of George Washington University Law School stated in a 
recent article, ``The Bush Administration's recent announcements . . . 
venture into constitutionally questionable territory.'' The 2003 OLC 
opinion directly conflicts with the holdings of Tilton and Nyquist, 
which I discussed in my written testimony.
    We are also aware that the Seattle Hebrew Academy recently received 
Federal Emergency Management Agency funds after the Administration 
reversed, by executive order, the long standing policy of FEMA to not 
fund religious institutions with active congregations. It is still 
unclear if the Hebrew Academy contains an active house of worship. 
There may be other instances of government funding for maintenance of 
houses of worship as well. Thus, even though we are aware that federal 
funds have been used in certain cases for the maintenance of houses of 
worship, all of these grants were unconstitutional. We are considering 
litigation on several of these matters.
    Question 2. Can you think of any circumstances where it would be 
appropriate for Federal funds to be associated with religious activity 
in the United States?
    Answer. Americans United strongly believes that direct government 
funding of religious organizations or activities and other funding 
schemes, such as vouchers, raise serious constitutional issues. It has 
long been official policy of the United States that the government does 
not pay for proselytization and the spread of sectarian views.
    Although the United States Supreme Court has repudiated the 
``pervasively sectarian'' standard for in-kind provisions to religious 
institutions, a majority of the Court has noted the continued viability 
of the prohibition on the provision of monetary funds to pervasively 
sectarian institutions. See Mitchell v. Helms, 530 U.S. 793, 848, 855-
56 (2000) (O'Connor, J., concurring) (noting, in upholding program, 
that no public ``funds ever reach the coffers of a religious 
[institution] and that there are ``special dangers associated with 
direct money grants to religious institutions'' because such ``aid 
falls precariously close to the original object of the Establishment 
Clause's prohibition'').\1\
---------------------------------------------------------------------------
    \1\ Because there was no majority opinion in Mitchell and Justice 
O'Connor joined the judgment on the narrowest grounds, federal 
appellate courts have agreed that the holdings of Mitchell are set 
forth in Justice O'Connor's opinion. See Columbia Union College v. 
Oliver, 254 F.3d 496, 504 & n.l (4th Cir. 2001); DeStefano v. Emergency 
Hous. Group, Inc., 247 F.3d 397, 419 (2d Cir. 2001); Johnson v. 
Economic Dev. Corp.T1, 241 F.3d 501, 510 n.2 (6th Cir. 2001).
---------------------------------------------------------------------------
    In the context of federal funds being used for maintenance of 
houses of worship, three Supreme Court decisions make clear that it is 
unconstitutional to allow federal grants for the repair of preservation 
of structures devoted to worship or religious instruction, and all 
three of these decisions remain binding law on the federal government. 
In Tilton v. Richardson, 403 U.S. 672 (1971), the Court laid the 
framework for the current constitutional requirements regarding 
construction, upkeep, and maintenance of religious institutions' 
physical facilities. Tilton involved a challenge to the 
constitutionality of a federal law under which federal funds were used 
by secular and religious institutions of higher education for the 
construction of libraries and other campus buildings. While the law 
allowed money to go to religious institutions, it also contained a 
proviso that expressly forbid funds from being used on buildings that 
would be used for worship or sectarian instruction. The Court upheld 
the program, but it unanimously held that the provision was 
constitutionally necessary and unanimously invalidated part of the 
statute that would have allowed religious schools to convert the 
federally funded facilities for worship or sectarian instruction after 
twenty years had passed. No building that was built with federal funds 
can ever be used for worship or sectarian instruction--that is Tilton's 
clear holding. 403 U.S. at 692.
    In two subsequent cases decided two years later, the Supreme Court 
clearly reaffirmed the principle that the First Amendment prohibits the 
government from subsidizing the construction or repair of buildings 
used as houses of worship. In Hunt v. McNair, 413 U.S. 734 (1973), the 
Supreme Court upheld the South Carolina Educational Facilities 
Authority Act, which established an ``Educational Facilities 
Authority,'' through which educational facilities could borrow money 
for use in their facilities at favorable interest rates. However, the 
Act required each lease agreement to contain a clauses forbidding 
religious use in such facilities and allowing inspections to enforce 
that requirement. 413 U.S. at 744. The Court upheld the Act, including 
the condition that government-funded bond financed physical structures 
could never be used for religious worship or instruction.
    Finally, in Committee for Public Education v. Nyquist, 413 U.S. 756 
(1973), the Supreme Court struck down New York's program of providing 
grants to nonpublic schools for use of maintenance and repair of 
``school facilities and equipment to ensure health, welfare, and safety 
of enrolled students.'' 413 U.S. at 762. The Court summarized its 
previous holdings as ``simply recogniz[ing] that sectarian schools 
perform secular, educational functions as well as religious functions, 
and that some forms of aid may be channeled to the secular without 
providing direct aid to the sectarian. But the channel is a narrow 
one.'' Id. at 775. The Court then held that ``[i]f the State may not 
erect buildings in which religious activities are to take place, it may 
not maintain such buildings or renovate them when they fall into 
disrepair.'' Id. at 777. In other words, government funding for either 
the construction or maintenance and repair of physical structures is 
unconstitutional unless there is no possibility that the structures 
will be used for sectarian worship or instruction. Otherwise the 
government would be subsidizing religious activity. Notwithstanding 
these comments, there may be circumstances where government reimburses 
houses of worship, say, for taking in hurricane victims just as the 
local Holiday Inn may be reimbursed. It is also conceivable that 
property owned by a religious group but that has essentially been given 
over to public use (as in picnic grounds) and which is not the site of 
religious activities could be subsidized if that property met 
qualifications for preservation grants as purely historical or natural 
sites.
    Question 3. Are you aware of any instances where churches or other 
houses of worship have received Federal funds for maintenance, 
restoration, or historic preservation efforts?
    Answer. Please see answer to question #1.
                                 ______
                                 
                                      Steve Hearst,
                            California Missions Foundation,
                                 San Francisco, CA, March 30, 2004.

    Steve Hearst, Chairman of the California Missions Foundation was 
asked by Sen. Domenici to respond to the following (4) questions:

    Question 1. Are visitors charged an admission fee at any of the 
California Missions?
    Answer. Twelve (12) California missions requested a donation for 
admission. Nine (9) missions charge an admission fee. Paid admissions 
range from $1.00 to $5.00.
    Question 2. How much does the Roman Catholic Church contribute 
annually to the preservation and maintenance of the California 
Missions?
    Answer. Two California mission owned by the Stare of California, 
Department of Parks and Recreation receive funds for preservation and 
maintenance when available. All other missions receive no funding from 
the Church for preservation, repairs and maintenance. Each mission 
relies on admissions, donations, gift stores and fund raising events to 
keep their doors open to the 5.3 million annual visitors.
    Question 3. Does the Roman Catholic Church own the California 
Missions? If not, who does and for how long?
    Answer. After the American occupation of Alta California, the 
property rights of the missions were reviewed by the federal land 
Commission, and some of the lands and buildings were returned to the 
Church by acts of Congress in the 1850's and 1860's. California 
missions are under the following jurisdictions:

DIOCESE OF SAN DIEGO
Mission San Luis Rey (Oceanside)
Mission Basilica San Diego de Alcala
DIOCESE OF ORANGE
Mission San Juan Capistrano (San Juan Capistrano)
ARCHDIOCESE OF LOS ANGELES
Mission San Buenaventura (Ventura)
Mission Santa Inez (Solvang)
Mission San Fernando (Mission Hills)
Mission San Gabriel (San Gabriel)
Mission Santa Barbara (Santa Barbara)
DIOCESE OF MONTEREY
Mission San Luis Obispo (San Luis Obispo)
Mission San Miguel (San Miguel)
Mission San Antonio de Padua (Jolon)
Mission Soledad (Soledad)
Mission Basilica San Carlos Borromeo del Rio Carmelo (Carmel)
Mission Santa Cruz (Santa Cruz)
Mission San Juan Bautista (San Juan Bautista)
DIOCESE OF OAKLAND
Mission San Jose (Fremont)
JESUITS AND SANTA CLARA UNIVERSITY
Mission Santa Clara (Santa Clara)
ARCHDIOCESE OF SAN FRANCISCO
Mission San Francisco de Asis (San Francisco)
Mission San Rafael (San Rafael)
CALIFORNIA DEPARTMENTS OF PARKS
Mission La Purisima State Historic Park (Lompoc)
Mission San Francisco Solano State Historic Park (Sonoma)
Mission Santa Cruz State Historic Park (Santa Cruz)

TITLE FOR CALIFORNIA MISSIONS
    The Church has held title to most of the California missions since 
some of the lands and buildings were returned to the Church by acts of 
Congress in the 1850's and 1860's. The State of California Department 
of Parks and Recreation has title to two missions: Mission La Purisima 
and Mission San Francisco Solano.

Mission San Diego property was returned to the church in 1862.
Mission Carmel property was returned to the Church in 1856.
Mission San Antonio de Padua property was returned to the Church in 
1862.
Mission San Gabriel property was returned to the Church in 1859.
Mission San Luis Obispo property was returned to the Church in 1859.
Mission San Francisco de Asis property was returned to the Church in 
1857.
Mission San Juan Capistrano property was returned to the Church in 
1860.
Mission Santa Clara property was acquired by the Jesuits in 1851.
Mission San Buenaventura property was returned to the Church in 1862.
Mission Santa Barbara property was returned to the Church in 1865. The 
Franciscans now own the mission.
Mission La Purisima State Historic Park was acquired by the State of 
California in 1935. It became a state park in 1940.
Mission Santa Cruz was completely destroyed by an earthquake in 1857. 
The Church rebuilt replica of the mission in 1931.
Mission Soledad property was returned to the Church in 1859
Mission San Juan Bautista property was returned to the Church in 1865.
Mission San Miguel property was returned to the Church in 1859.
Mission San Fernando property was returned to the Church in 1861.
Mission San Luis Rey property was returned to the Church in 1865. The 
Francisco now own the mission.
Mission Santa Ines property was returned to the Church in 1862.
Mission San Rafael property was returned to the Church in 1855.
Mission San Francisco Solana State Historic Park was acquired by the 
State of California in 1906.

    Question 4. Have any of the California Missions ever received 
federal funding for maintenance, restoration or any other activities?
    Answer. Several California missions have received federal, state 
and/or local government funding for preservation projects including:

  <bullet> Mission San Gabriel received 5350,000 from the State of 
        California after the 1987 earthquake. The mission received 
        S1,400,000 from the federal government (FEMA) after the 1994 
        San Gabriel earthquake. The federal funds were given directly 
        to the Archdiocese of Los Angeles.
  <bullet> Mission San Fernando received $1,000,000 from the federal 
        government (FEMA) after the 1994 earthquake as well as a grant 
        from the State of California, Office of Historic Preservation. 
        The federal grant was given directly to the Archdiocese of Los 
        Angeles.
  <bullet> Mission San Juan Capistrano received a $140,000 grant from 
        the federal government as well as federal highway funds to 
        restore historic ruins.
  <bullet> Mission San Luis Rey has received approximately $14,000 from 
        the county government
  <bullet> Mission San Jose received 5900,000 from the State of 
        California for seismic retrofitting the mission in 2000.

    In 2003 federal grants to be used to renovate churches and 
religious sites that are designated historic landmarks were awarded to 
the Old North Church its Boston ($317,000) and the Touro Synagogue in 
Rhode Island ($375,000).
    Please contact our office if you need any clarification or 
additional information regarding these questions and the California 
Missions.
            Have a good evening.
                                             Toyia Wortham,
                                         Assistant to Steve Hearst.
                                 ______
                                 
                                      Steve Hearst,
                            California Missions Foundation,
                                 San Francisco, CA, March 30, 2004.
    Please note the correction to #3.

    Question 3. Does the Roman Catholic Church own the California 
Missions? If not, who does and for how long?

JESUITS AND SANTA CLARA UNIVERSITY
Mission Santa Clara (Santa Clara)
ARCHDIOCESE OF SAN FRANCISCO
Mission San Francisco de Asis (San Francisco)
Mission San Rafael (San Rafael)
CALIFORNIA DEPARTMENTS OF PARKS
Mission La Purisima State Historic Park (Lompoc)
Mission San Francisco Solano State Historic Park (Sonoma)
Mission Santa Cruz State Historic Park (Santa Cruz)
TITLE FOR CALIFORNIA MISSIONS
    The Church has held title to most of the California missions since 
some of the lands and buildings were returned to the Church by acts of 
Congress in the 1850's and 1860's. The State of California Department 
of Parks and Recreation has title to two missions: Mission La Purisima 
and Mission San Francisco Solano.

Mission San Diego property was returned to the church in 1862.
Mission Carmel property was returned to the Church in 1856.
Mission San Antonio de Padua property was returned to the Church in 
1862.
Mission San Gabriel property was returned to the Church in 1859.
Mission San Luis Obispo property was returned to the Church in 1859.
Mission San Francisco de Asis property was returned to the Church in 
1857.
Mission San Juan Capistrano property was returned to the Church in 
1860. The Jesuits acquired Mission Santa Clara property in 1851.
Mission San Buenaventura property was returned to the Church in 1862.
Mission Santa Barbara property was returned to the Church in 1865. The 
Franciscans now own the mission.
Mission La Purisima was acquired by the State of California in 1935. It 
became a state historic park in 1940.
Mission Santa Cruz was completely destroyed by an earthquake in 1857. 
The Church rebuilt replica of the mission in 1931.
Mission Soledad property was returned to the Church in 1859.
Mission San Juan Bautista property was returned to the Church in 1865.
Mission San Miguel property was returned to the Church in 1859.
Mission San Fernando property was returned to the Church in 1861.
Mission San Luis Rey property was returned to the Church in 1865. The 
Franciscans now own the mission.
Mission Santa Ines property was returned to the Church in 1862.
Mission San Rafael property was returned to the Church in 1855.
Mission San Francisco Solano was deeded to the State of California 
Division of Parks and beaches by the Historic Landmarks League in 1926. 
it became a state historic park in 1927.

    Please contact our office if you need any clarification or 
additional information regarding these questions and the California 
Missions.
            Have a good evening.
                                             Toyia Wortham,
                                         Assistant to Steve Hearst.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                             Los Alamos National Laboratory
                                     Los Alamos, NM, March 9, 2004.
Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman, I have reviewed S. 1687, the Manhattan 
Project National Historic Park Study Act of 2003, with great interest 
and strongly support all efforts to pass thus important historic 
preservation,legislation.
    The Los Alamos National Laboratory has been the Site of many of the 
most significant events in science and engineering of the 20th century. 
The Laboratory's 60-year history is replete with individuals such as 
Robert Oppenheimer, Edward Teller, and Nicholas Metropolis who were 
instrumental in leading America's march into the nuclear age. In 
addition to its people, the Laboratory complex still contains many of 
the key installations built during the early days of the Manhattan 
Project.
    It is the preservation of these sites, both on and outside of 
Laboratory property, which makes this legislation critical to 
maintaining an understanding of the country's role in the nuclear age. 
Although several of the key Manhattan Project sites and structures are 
situated behind our security perimeter, I am committed to working with 
the National Nuclear Security Administration to provide public access 
to these areas, including the old gun site at Technical Area 8 where 
the first nuclear weapon was designed.
    The involvement of the National Park Service as a sponsoring 
government agency will increase the likelihood of allowing limited 
uncleared access into restricted areas like those containing the gun 
site. This government-to-government partnership is crucial from a 
security aspect because tours conducted by another government agency 
are more easily coordinated. 1 also believe that this legislation will 
foster extensive collaboration between the National Park Service and 
the Laboratory's Bradbury Science Museum, which is located in downtown 
Los Alamos.
    The Los Alamos National Laboratory, through our workforce and 
community, has and will continue to play a pivotal role in our 
country's national security. Having a stronger historical perspective 
and interpretation of the Manhattan Project as provided through this 
legislation will help increase employee morale and provide the 
Laboratory with an additional resource in recruiting the next 
generation of scientists and engineers.
    In closing, I would again like to offer my strongest support for 
this legislation and urge its swift enactment.
            Sincerely,
                                            G. Peter Nanos,
                                               Laboratory Director.
                                 ______
                                 
    Prepared Statement of Del Ballard, President, B Reactor Museum 
                 Association, on H.R. 3207 and S. 1687
    This statement is in support of Senate Bill S. 1687, and its 
companion Bill H.R. 3207, ``The Manhattan Project Historic Park Study 
Act of 2003''.
    The Manhattan Project, the top-secret effort in World War II to 
develop an atomic weapon ahead of the Nazis, was one of the most 
significant undertakings in American and world history. Yet the history 
of this huge endeavor has been ``largely invisible'' to the American 
public because of the secrecy and security applied.
    The sites that were selected for the development and production 
facilities needed for producing the atomic bomb included Oak Ridge, TN; 
Hanford; WA; and Los Alamos, NM. Hanford was selected for the location 
of facilities to produce plutonium. Plutonium was the newly discovered 
element that could be produced in relative abundance from natural 
uranium, by the fission process, in an atomic reactor.
    Three reactors--at that time called ``piles''--were constructed at 
Hanford under the Manhattan Project. The first and therefore the most 
historic was the B Reactor. The historical significance of this 
facility is unquestionable. It was the worlds full scale production 
reactor, produced the material for the first ever atomic explosion, and 
the plutonium used for the weapon released over Nagasaki, Japan on 
August 9, 1945, bringing a conclusive end to W.W. II a few days later.
    Preserving the history generated by the Manhattan Project should be 
of paramount interest for our government. Executive Order #13287, 
``Preserve America'', issued in 2003 calls for the Federal government 
to ``provide leadership in preserving America's heritage by actively 
advancing the protection, enhancement, and contemporary use of the 
historic properties owned by the Federal government. In Addition, the 
Order directs the Federal government to ``promote local economic 
development and vitality through the use of historic properties in a 
manner that contributes to the long-term preservation and productive 
use of those properties.''
    As recently quoted by Senator Cantwell: The B Reactor at Hanford 
made significant contributions to the United States' defense policy 
from World War II through the Cold War. I believe it is tremendously 
important that future generations know the history and impact of the B 
Reactor as well as the other various Manhattan Project sites. It is 
critical that our nation reflect on both the Manhattan Project's 
unprecedented engineering achievements, such as B Reactor, as well as 
the human and environmental costs of such initiative, which changed the 
course of world history.
    The Park Service Study to be authorized by S. 1678 is vitally 
important for the long term preservation of Manhattan Project resources 
and specifically the B Reactor.
    The Department of Energy has indicated they consider it quite 
commendable that the B Reactor be considered for use as a museum or 
monument to commemorate the notable engineering achievement, but they 
cannot utilize clean-up funds to support long-term public use. Their 
position is that if a long term operating partner is not identified the 
facility will not be preserved.
    The-study to be authorized by this bill does not prejudge what role 
the National Park Service might play but will assess management 
alternatives. Consideration will be given to the roles of state and 
local governments, Indian tribes, private sector and other federal 
agencies and various cooperative management arrangements.
    The Department of Energy is committed to a timely and cost 
effective cleanup of Hanford production facilities. They are asking 
that a decision by reached by September 2005 for the final disposition 
of the B Reactor. In order to avoid delaying the accelerated clean-up 
of the Department of Energy sites, to the extent possible the requested 
study should be done on an accelerated schedule. To ensure adequate 
funding, we recommend that funds in the amount of $850,000 be included 
in the Energy and Water Development Appropriations for FY 2006 for this 
purpose and that the Secretary of Interior consult with the Secretary 
of Energy throughout the process.
    The B Reactor Museum Association strongly supports legislation to 
authorize this study.

                                 ______
                                 
 Prepared Statement of Hon. Doc Hastings, U.S. Representative From the 
                          State of Washington

    Mr. Chairman: I appreciate the opportunity to offer my support for 
the legislation before the committee today. I also would like to thank 
my colleague from Washington, Senator Cantwell for requesting this 
hearing and for her work on this issue. Passage of the ``Manhattan 
Project National Historical Park Study Act of 2003'' would be an 
important step forward in preserving important aspects of our nation's 
past. The historic B-Reactor, located at the Hanford site in Central 
Washington, is one of the most significant aspects of the legislation. 
I have been working hand-in-hand with Senator Cantwell on preservation 
of the B-Reactor. With bipartisan support for this project, I am 
hopeful that legislation can be enacted this year.
    Hanford's nuclear history began in the 1940's and nuclear 
production at Hanford played a pivotal role in our nation's defense for 
more than 40 years. An integral part of the Manhattan Project, the 
World War II effort to develop and construct the first atomic bomb, the 
work done at Hanford helped win World War II. Later, nuclear production 
at Hanford helped provide the nuclear deterrence that helped defeat 
communism and win the Cold War.
    One of the key components to Hanford's nuclear production success 
was the B Reactor. In 1943, only months after Enrico Fermi first 
demonstrated that controlled nuclear reaction was possible, ground was 
broken on the B Reactor--which became the world's first full-scale 
plutonium production reactor. The B Reactor produced the plutonium for 
the first ever manmade nuclear explosion and for the bomb dropped on 
Nagasaki that helped win World War II.
    I've toured B Reactor and seen first-hand that it is an amazing 
feat of engineering and a site of national historical significance. The 
B Reactor is largely maintained in its original state and provides 
visitors with a true feeling of the 1940's era and the Manhattan 
Project.
    I believe preservation of the B Reactor would help tell the story 
of the Manhattan Project and serve as a useful education tool--
especially for those generations who didn't live through World War II 
or the Cold War. It represents a unique part of Central Washington's 
history and our nation's history that should not be forgotten.
    I want to offer my full support fro legislation to preserve the 
historical legacy of the Manhattan project sites. I hope legislation 
can be adopted by both the House and the Senate yet this year to start 
the process moving forward. Mr. Chairman--Thank you for the opportunity 
to share my views with the committee. I look forward to continuing to 
work on this issue with the Committee and my colleague from Washington.
                                 ______
                                 
                                Committee on Rules,
                             U.S. House of Representatives,
                                     Washington, DC, March 8, 2004.
Hon. Craig Thomas
Chairman, Committee on Energy and Natural Resources, Subcommittee on 
        Parks, Historic Preservation and Recreation, Washington, DC.
    Dear Chairman Thomas, Thank you for holding this hearing of the 
Subcommittee on Parks, Historic Preservation and Recreation for H.R. 
1446, the California Missions Preservation Act. As you know, this 
legislation would authorize $10 million over five fiscal years to 
support the efforts of the California Missions Foundation in restoring 
and repairing our 21 historic missions, and preserving their artwork 
and artifacts. This federal funding would supplement State funding, and 
a statewide private campaign dedicated to ensuring the future of the 
missions.
    The missions have evolved to become bases for community-wide events 
such as concerts and art exhibitions as well. They are also an 
important part of California's booming travel and tourism industry. As 
you know, California is the number one travel destination in the United 
States, and its missions are the most visited historic attractions in 
the state, drawing more than five and a half million tourists a year.
    In addition, because of their significance to California's rich 
history, the historic missions are a subject of study for elementary 
school students. The state's fourth grade school children have the 
opportunity to study the missions and often visit them as part of their 
western history curricula. This serves an important education function 
in teaching young students about the role of the missions in 
California's development from a vast wilderness in the mid-18th Century 
to a civilization ripe for statehood in the 1840's.
    I am pleased to support my colleague, Sam Farr, in his efforts to 
see this legislation enacted. I also commend Senator Barbara Boxer for 
her partnership in this moving this bill through the Senate, and 
encourage the Subcommittee's support in preserving the history of 
California's missions for future generations.
            Sincerely,
                                         Hon. David Dreier,
                                                          Chairman.

                                 ______
                                 
   Prepared Statement of The Friends of Historic San Antonio Mission 
                         on S. 1306 & H.R. 1446

    Dear committee members, the Friends of Historic San Antonio Mission 
wishes to go on record as being fully supportive of the above named 
bills which propose funds to the CA Missions Foundation for the 
restoration and repair of the Spanish colonial missions here in 
California.
    We encourage you to vote favorably for these measures when they 
come before your committee on March 9. Thank you.
            Sincerely,
                                                Sue Watson,
                President, Friends of Historic San Antonio Mission.


</pre></body></html>
